<html>
<title> - THE FISCAL YEAR 2017 DEPARTMENT OF ENERGY BUDGET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


            THE FISCAL YEAR 2017 DEPARTMENT OF ENERGY BUDGET

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2016

                               __________

                           Serial No. 114-123
                           
                           
         [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                  


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                              ______________
                              
                              
                        U.S. GOVERNMENT PUBLISHING OFFICE
20-223 PDF                      WASHINGTON : 2016                        
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d1a052a091f191e020f061a4409050744">[email&#160;protected]</a>  






                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Mississippi            GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     2
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8

                                Witness

Ernest J. Moniz, Secretary, Department of Energy.................     9
    Prepared statement...........................................    13
    Answers to submitted questions \1\...........................    99

                           Submitted Material

Report to Congress, ``National Nuclear Security Administration 
  Comments on the Final Report of the Congressional Advisory 
  Panel on the Governance of the Nuclear Security Enterprise,'' 
  May 2015, submitted by Mr. Whitfield...........................    92
Amicus Curiae, Case No. 15-1363, U.S. Court of Appeals for the 
  District of Columbia Circuit, February 23, 2016, \2\ submitted 
  by Mr. Pompeo

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF03/
  20160302/104593/HHRG-114-IF03-Wstate-MonizE-20160302-SD086.pdf.
\2\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF03/
  20160302/104593/HHRG-114-IF03-20160302-SD033.pdf.

 
            THE FISCAL YEAR 2017 DEPARTMENT OF ENERGY BUDGET

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2123, Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Olson, Shimkus, 
Latta, McKinley, Kinzinger, Griffith, Johnson, Long, Ellmers, 
Mullin, Hudson, Upton (ex officio), Rush, McNerney, Tonko, 
Capps, Doyle, Castor, Sarbanes, Welch, Yarmuth, Loebsack, and 
Pallone (ex officio).
    Staff present: Gary Andres, Staff Director; Will Batson, 
Legislative Clerk; Sean Bonyun, Communications Director; 
Leighton Brown, Deputy Press Secretary; Patrick Currier, Senior 
Counsel, Energy and Power; Tom Hassenboehler, Chief Counsel, 
Energy and Power; A.T. Johnson, Senior Policy Advisor; Ben 
Lieberman, Counsel, Energy and Power; Brandon Mooney, 
Professional Staff Member, Energy and Power; Mary Neumayr, 
Senior Energy Counsel; Annelise Rickert, Legislative Associate; 
Chris Sarley, Policy Coordinator, Environment and the Economy; 
Dan Schneider, Press Secretary; Peter Spencer, Professional 
Staff Member; Andy Zach, Counsel, Energy and the Environment; 
Christine Brennan, Democratic Press Secretary; Jeff Carroll, 
Democratic Staff Director; Rick Kessler, Democratic Senior 
Advisor and Staff Director, Energy and the Environment; Josh 
Lewis, Democratic EPA Detailee; John Marshall, Democratic 
Policy Coordinator; Matt Schumacher, Democratic Press 
Assistant; Andrew Souvall, Democratic Director of 
Communications, Outreach, and Member Services; and Tuley 
Wright, Democratic Energy and Environment Policy Advisor.
    Mr. Whitfield. I would like to call this hearing to order.
    Of course, today we are having a hearing on the Department 
of Energy's fiscal year 2017 budget. We are delighted that 
Secretary Moniz is here with us today to, I guess I will say, 
defend the budget because we do have some differences of 
opinion.
    But, at this time, I would like to recognize myself 5 
minutes for an opening statement. And, Mr. Secretary, we are 
delighted you are here. And we enjoy working with you even 
though, as I said, we do have some significant differences on 
some of the policies.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    My concerns about prior years' budgets are repeated in this 
year's budget. I take serious issue with the nearly 10 percent 
increase in overall funding level requests. And I personally 
still question the direction DOE is taking on energy policy. I 
should note that there are issues that we certainly agree with 
DOE, at least in principle, and there is much in the agency's 
Quadrennial Energy Review that I think we all support. We all 
agree on the need to modernize, and protect the Nation's energy 
infrastructure and the need to have a well-trained and 
diversified energy workforce with the skills that energy 
markets will demand in years to come.
    We all recognize the importance of a more integrated North 
American energy system, and the benefits of engaging in energy 
diplomacy, and conducting ourselves like the energy superpower 
really that we have become. We agree on taking steps to improve 
energy efficiency and accountability, especially in regard to 
the Federal Government's own use of energy, as well as the 
functioning of DOE itself. And most of us agree on the agency's 
commitment to research and development.
    But on many areas, and the direction, in which this agency 
is taking with its energy policy, I personally, respectfully, 
disagree. Most significantly, this budget continues to reflect 
the President's priority to treat climate change as the number 
one issue facing America and is DOE's overriding concern.
    One of DOE's stated priorities, in the fiscal year 2017 
budget request, is to support ongoing implementation of the 
President's climate action plan. We see this in the programs 
that have received proposed budget increases, like the $2.9 
billion, for the Office of Energy Efficiency and Renewable 
Energy, a 40 percent increase. A 63 percent increase for wind 
energy, a 22 percent increase for corporate support, at the 
same time, a reduction of nuclear R&D by 23 percent, a 
reduction in nuclear technology by 20 percent.
    And I might add that the administration has chosen to make 
climate an agency priority without any statutory authority from 
Congress directing DOE to focus on global warming. As part of 
the Paris Agreement, a nonbinding agreement, Obama and 19 other 
countries launched a program known as Mission Innovation in 
order to accelerate global energy innovation by doubling the 
amount of our taxpayer dollars in clean energy R&D over the 
next 5 years. And so the things included in Mission Innovation 
we have used before, but there is a 21 percent increase in the 
budget request.
    The budget also evidences a misguided perspective on the 
proper role of Government in energy policy. A cleaner, more 
advanced and efficient energy system can be achieved through 
primarily private sector innovation and markets, supported by 
Government-backed research and development, not a top-down, 
Government-mandated approach. Yet, almost everywhere in this 
budget, we see DOE trying to expand its role and impose its own 
preferences on the private sector. And I might say that I 
personally take responsibility, I went back and looked at, 
certainly it is not all up to me, but since 2009, there has 
been a 35 percent increase in budget requests from DOE.
    During that same time, household median income has gone 
down by 2 percent since the President has been in office. So 
that reflects really what is happening in Government. We keep 
getting all these requests for increases. And, yet, the 
American people, they, their household income actually is 
decreasing. And I take responsibility for it because here I am, 
chairman of the Energy and Power Subcommittee, we should be 
working closer with the appropriators. Because the 
appropriators seem to just keep following down, giving more 
money. And, yet, we should be, as a committee, pressing them on 
what we think. We have as much jurisdiction over energy as 
certainly the appropriators do. They appropriate the money.
    But I personally, this year, am going to try to have more 
interchange with them, exchange of ideas, dialogue with them to 
give them our very strong views on where we think the President 
is wrong on his priorities for DOE. With that, at this time, I 
would like to recognize the distinguished gentleman from 
Illinois, Mr. Rush, for a 5-minute opening statement.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    Today is our final Department of Energy budget hearing for 
the Obama administration. We are always delighted to have 
Secretary Moniz here and look forward to his remarks.
    My concerns about prior years' budgets are repeated in this 
year's budget. I take serious issue with the nearly 10 percent 
boost in overall funding levels and I still question the 
direction DOE is taking on energy policy.
    I should note that there are issues that we can agree with 
DOE, at least in principle, and there is much in the agency's 
Quadrennial Energy Review that I think we all can support. We 
all agree on the need to modernize and protect the Nation's 
energy infrastructure and the need to have a well-trained and 
diversified energy workforce with the skills that energy 
markets will demand in the years ahead. We all recognize the 
importance of a more integrated North American energy system 
and the benefits of engaging in energy diplomacy and conducting 
ourselves like the energy superpower we have become. We agree 
on taking steps to improve energy efficiency and 
accountability, especially as regards the Federal Government's 
own use of energy as well as the functioning of DOE itself. And 
most of us agree on the agency's commitment to research and 
development.
    But on many areas and the direction in which this agency is 
taking with its energy policy, I respectfully disagree. Most 
significantly, this budget continues to reflect the President's 
priority and treat climate change as DOE's overriding concern. 
One of DOE's stated priorities in the FY 2017 budget request is 
to ``support ongoing implementation of the President's Climate 
Action Plan.'' We see this in the programs that have received 
proposed budget increases, like the $2.1 billion for the Office 
of Energy Efficiency and Renewable Energy, as well as those 
facing cuts, such as the 43 percent cut in the Office of Fossil 
Energy.
    In fact, the Office of Energy Efficiency and Renewable 
Energy is slated to get more funds than the Offices of Nuclear, 
Fossil, Electricity, and ARPA--E combined. Within the budget's 
largest new program, the 21st Century Clean Transportation plan 
makes climate concerns the primary factor in transportation 
policy by inserting a new tax on oil that will raise gas prices 
by about 25 cents per gallon. This action alone speaks volumes 
about how badly off track this administration has gotten on 
energy policy. And I might add that the administration has 
chosen to make climate an agency priority without any statutory 
authority actually directing DOE to focus on global warming. As 
part of the Paris agreement, Obama and 19 other countries 
launched a program known as ``Mission Innovation'' in order to 
accelerate global green energy innovation by doubling the 
amount of our taxpayer dollars in clean energy R&D over the 
next 5 years.
    The problem with this climate myopia is that it comes at 
the expense of other priorities that DOE should be more focused 
upon, like ensuring plentiful and affordable supplies of 
domestic energy, including fossil fuels. To me this runs 
counter to the very purpose for which the agency was created. 
Indeed, the Obama DOE's antipathy towards fossil fuels 
represents the first time the agency has so actively opposed an 
affordable domestic energy source.
    Access to affordable and reliable energy is key to 
stimulating economic growth and strengthening our global 
competitiveness and it should be a priority for this agency. In 
contrast, putting climate first increases energy costs, 
restrains growth, destroys jobs, and reduces household spending 
power, especially low-income households.
    The budget also evidences a misguided perspective on the 
proper role of Government in energy policy. A cleaner, more 
advanced and efficient energy system can be achieved through 
private sector innovation and markets, supported by Government-
backed research and development--not a top-down, Government-
mandated approach. Yet almost everywhere in this budget we see 
DOE trying to expand its role and impose its own preferences on 
the private sector.
    DOE's high budget request is bad enough, but the energy 
policy it would pay for is even worse. We can do much better in 
this budget, but we must prioritize affordable energy, economic 
growth, and jobs.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Thank you, Mr. Chairman. I want to thank you for 
holding today's hearing on DOE's fiscal year 2017 budget 
request. And, as always, Mr. Chairman, it is my pleasure to 
welcome to this subcommittee Secretary Moniz, who I like to 
refer to as our superstar Secretary. Mr. Secretary, your legacy 
at the Department of Energy is unsurpassed, in my opinion, as 
you have left your mark on a wide range of critically important 
issues, from your outstanding contribution in negotiating the 
Iran Nuclear Deal, to reopening the agency so that it can more 
effectively address the challenges of the present and the 
future.
    There is no doubt in my mind, Mr. Secretary, that you have 
set the gold standard as Energy Secretary in terms of your 
effectiveness and forward-looking policies. And I, for one, 
will evaluate future heads of the agency by the great legacy 
that you have established. Mr. Chairman, before Secretary Moniz 
took over the reins of the Department, there were millions of 
Americas who had no idea of what the Department of Energy even 
did, and many more who mistakenly believed the agency's 
policies had little to no impact on their lives. And I am proud 
to have been able to partner with the Secretary and his agency 
on a number of important initiatives that will affect the lives 
of many American families for years, if not decades, to come.
    Mr. Chairman, following a private meeting in my office some 
years ago, rather than giving the customary lip service, and go 
on conducting his business as usual, Secretary Moniz went back 
to the agency and created the Minorities in Energy Initiative. 
Mr. Chairman, this single most important initiative, which was 
designed to increase DOE's outreach, engagement, and access for 
minority communities, recently celebrated its second-year 
anniversary, with Minorities in Energy ambassadors from all 
across the country, representing all sectors of the energy 
industry and beyond.
    I am proud to inform the Secretary that on this past 
Monday, with the help and support of Chairman Whitfield, 
Chairman Upton, Ranking Member Pallone, and many others of my 
colleagues on this subcommittee, the House just passed the 21st 
Century Workforce legislation which, among other important 
priorities, Mr. Secretary, would also codify the Minorities in 
Energy Initiative.
    Mr. Chairman, I must also commend Secretary Moniz for 
significantly expanding the Minority Internship Program at the 
Department, from only 50 candidates a few years ago, to over 
100 interns who participated this past summer. This important 
program provides young men and young women with invaluable 
exposure, networking opportunities, and critical work 
experience that can be parlayed into important career 
opportunities down the line.
    Mr. Chairman, I also look forward to engaging the Secretary 
on the important work that we both have been intimately 
involved in regarding opening up the National Research 
Laboratories and all of their resources to all segments of the 
American population. Secretary Moniz and I have both expressed 
our desire to see these labs become more diverse in terms of 
their leadership, their hiring practices, their contracting, 
and vending opportunities, as well as, providing internships 
and outreach programs to 10 to 12 schools and minority-serving 
higher education institutions.
    So, Mr. Chairman, I look forward to hearing about the 
progress that has been made in these areas. And with that, I 
yield back the balance of my time. And thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back. At this time, the 
Chair recognizes the chairman of the full committee, Mr. Upton, 
for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. Secretary Moniz, 
welcome back. Let me first say how much I truly have 
appreciated your efforts as Secretary to come before this 
committee and work with us on both sides of the aisle. Never 
been one to shy away from coming up to the Hill, engaging us, 
even when we might disagree. I credit you and your staff with 
the great work that you have done, particularly with the 
Quadrennial Energy Review, which helped shape our bipartisan 
approach to energy legislation in this Congress.
    While some of the provisions we worked on together were 
enacted as part of and energy security title in the highway 
bill, I still am hopeful that similar legislation can and will 
get through the Senate, perhaps as early as tomorrow, so that 
we can get a conference negotiation underway.
    We look forward, Chairman Murkowski and myself, to working 
with you on an incredible new era of abundance, as it is 
important that our policies reflect these 21st century 
realities. We should be promoting and embracing our resources 
to keep energy affordable for folks in Michigan and across the 
country. I will take note that the President's budget takes a 
slightly different approach, particularly as it relates to the 
gas tax as it impacts the most vulnerable. However, our 
abundance on coal, oil, and natural gas, along with nuclear, 
hydro, and renewables does put us in charge of our energy 
destiny and makes the future of affordable and reliable energy 
an achievable one for the country.
    The biggest threat to this bright future is no longer OPEC 
or any other outside menace. It is, instead, the misguided 
policies that sometimes pick winners and losers. And, 
unfortunately, we see much of that in this budget. One area in 
which I am interested in learning more about is the 
administration's recent commitments to double Government-wide 
research and development over the next 5 years as part of the 
Mission Innovation.
    Continued breakthroughs in the way that we produce, 
transmit, and consume energy are needed in order to meet 21st 
century threats, be it from cyber, severe weather, physical 
attacks on our infrastructure. Many in the private sector are 
leaping at the challenge, including Bill Gates, and some of our 
leading innovators and entrepreneurs as part of the 
breakthrough coalition. And the recent announcements and 
financial commitments appear to be very promising. And I look 
forward to hearing from you on that.
    Congress, however, will need more information before 
responding to the budget requests as to how limited DOE 
research dollars will work to augment the commitments made by 
the private sector. In a challenging budget environment, we 
will need to ensure there is no duplication. And the 
transparency, competitiveness, and impacts of consumer costs 
and reliability are front and center and that the technologies 
and pathways considered are truly resource neutral.
    As always, I know you and your staff will continue to be 
ready to assist us, to work with us. And I look forward to your 
testimony. And I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Secretary Moniz, welcome back. Let me first say how much I 
have appreciated your efforts as Secretary to come before this 
committee and work with us on both sides of the aisle. You have 
never been one to shy away from coming up to the Hill and 
engaging us, even when we may disagree. I credit you and your 
staff and the work you have done, in particular with the 
Quadrennial Energy Review, which helped shape our bipartisan 
approach to energy legislation this Congress.
    While some of the provisions we worked on together were 
enacted as part of an energy security title in the highway 
bill, I am still hopeful that similar legislation can, and 
will, get through the Senate so we can get conference 
negotiations underway. We are in the midst of an incredible new 
era of abundance, and it is important our policies reflect 
these 21st century realities.
    As I mentioned, there are inevitably areas where we won't 
quite see eye to eye, and the president's budget is one of 
them. We should be promoting and embracing our resources to 
keep energy affordable for folks in Michigan and across the 
country. But the president's budget takes a different approach, 
working to sideline and assail various sources of energy no 
matter their abundance or importance on family budgets.
    In particular, the proposed new 21st Century Clean 
Transportation System is a prime example. This program, to be 
funded by a new tax that would raise gasoline prices, would 
subject our transportation system to a host of costly new 
climate hoops that put climate concerns first and affordability 
last.
    This and other Washington-based programs in the budget miss 
a critical point--America's energy success is not due to the 
decisions of bureaucrats in Washington but to energy 
entrepreneurs across the country. DOE is at its best when it 
facilitates free markets, opens up competition, and allows 
innovators to innovate, not when it tries to micromanage them. 
Yet the budget has the potential to ratchet up the level of 
centralized control.
    Our domestic abundance of coal, oil, and natural gas, along 
with nuclear, hydro, and renewables, puts us in charge of our 
energy destiny and makes a future of affordable and reliable 
energy an achievable one for this Nation. The biggest threat to 
this bright future is no longer OPEC or any other outside 
menace. It is misguided policies that seek to to pick winners 
and losers, and unfortunately we see much of that continue in 
this proposed budget.
    One area in which I am interested in learning more about is 
the administration's recent commitments to double Government-
wide research and development over the next 5 years, as part of 
Mission Innovation. Continued breakthroughs in the way we 
produce, transmit, and consume energy are needed in order to 
meet 21st century threats, be it from cyber, severe weather, or 
physical attacks on infrastructure. Many in the private sector 
are leaping at the challenge, including Bill Gates and some of 
our leading innovators and entrepreneurs as part of the 
Breakthrough Coalition, and the recent announcements and 
financial commitments appear to be very promising.
    Congress, however, will need more information before 
responding to the budget requests on how limited DOE research 
dollars will work to augment the commitments made by the 
private sector. In this challenging budget environment, we will 
need to ensure there is no duplication, and that transparency, 
competiveness, and impacts on consumer cost and reliability are 
front and center, and that the technologies and pathways 
considered are truly resource neutral.
    As always, I know you and your staff will be ready to 
assist and work with us, and I look forward to your testimony.

    Mr. Whitfield. The gentleman yields back. At this time, the 
chairman recognizes the gentleman from New Jersey, Mr. Pallone, 
for 5 minutes.


OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I would like to also 
welcome Secretary Moniz back to the committee this morning. Our 
Nation faces many challenges as we work to lead the global 
coalition of countries committed to addressing the threat of 
climate change. The Department of Energy is at the forefront of 
these efforts here in the United States. And I commend your 
achievements as Secretary that are helping to make our country 
a global leader in combatting climate change.
    In December, over 190 countries came together to address 
the common goal of limiting carbon emissions, a threat to all 
nations. Accelerating clean energy innovation is essential to 
achieving the goal of limiting the rise in global temperatures 
to below 2 degrees Celsius. Thanks in part to your continued 
leadership, we are now on a pathway to a safer, healthier 
planet for future generations, while creating an enormous 
opportunity for economic growth.
    The fiscal year 2017 Department of Energy budget proposal 
requests $32.5 billion for the agency, which represents a $2.9 
billion increase from the 2016 enacted level. And this is a 10 
percent increase over 2016 levels and represents a significant 
investment in your agency.
    The bulk of this increase will support Mission Innovation, 
an initiative launched by the administration in conjunction 
with the Paris Climate Agreement. Mission Innovation would 
double research and development in clean energy technology for 
5 years. And the bulk of this significant initiative will be 
led by the Department of Energy. In order to meet the 
aggressive goals outlined in the Paris Climate Agreement, our 
country must be seriously dedicated to investment in clean 
energy technologies. And to that end, Mission Innovation will 
mark a significant investment in our economy, our environment, 
and public health.
    I support this budget request because it provides the 
Department of Energy with the tools necessary to catapult our 
country to the forefront of 20th century clean energy 
innovation. These robust increases in funding for the agency 
are critical to achieving our long-term climate objectives. 
Mission Innovation also holds the promise of creating an 
economic opportunity for our country on the scale of the Apollo 
Program.
    There are some requests in this budget that are of specific 
interest to my State and district. In particular, I strongly 
support the $110 billion in the request to support a new 
competition to establish 10 regional clean energy innovation 
partnerships around the country. Our country has many hubs of 
energy research and industry knowledge that can greatly 
contribute to furthering our clean energy future.
    In New Jersey, we have leading academic research 
institutions, like the Rutgers Energy Institute and Princeton 
University. A number of renewable, or major renewable energy 
companies, are headquartered in our State. And we are home to 
the Princeton Plasma Physics Laboratory, a DOE facility, doing 
cutting-edge research on fusion energy. I know that New Jersey 
would be uniquely qualified to host one of these 10 regional 
partnerships.
    I continue to support funding for the Northeast Gasoline 
Supply Reserve and, again, commend the Secretary for taking 
action to create this important stockpile of gasoline in the 
Northeast. As many know, when Hurricane Sandy struck in 2012, 
access to gasoline was severally limited in the aftermath of 
the storm, causing major problems in the region, impacting 
homeowners, businesses, and emergency personnel. And I am 
pleased that we learned this hard lesson and put in place a 
plan to make the region more resilient when another storm 
strikes.
    All in all, the critical investments in clean energy 
included in the budget proposal will put our country on the 
right track to meet our carbon reduction goals and protect our 
environment and public health. It sets the stage for renewable 
energy innovations that will bolster America's clean energy 
economy. Mr. Secretary, I commend you for your leadership in 
this area, particularly during the negotiations that led to the 
landmark climate accord in December.
    And I look forward to working with you on these exciting 
new initiatives, to take action on climate change, and expand 
our clean energy economy. Thank you again. I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Mr. Chairman.
    I'd like to welcome Secretary Moniz back to the committee 
this morning. Our Nation faces many challenges as we work to 
lead the global coalition of countries committed to addressing 
the threat of climate change. The Department of Energy is at 
the forefront of these efforts here in the United States, and I 
commend your achievements as Secretary that are helping to make 
our country a global leader in combating climate change.
    In December, over 190 countries came together to address 
the common goal of limiting carbon emissions--a threat to all 
nations. Accelerating clean energy innovation is essential to 
achieving the goal of limiting the rise in global temperatures 
to below 2 degrees Celsius. Thanks, in part, to your continued 
leadership, we are now on a pathway to a safer, healthier 
planet for future generations while creating an enormous 
opportunity for economic growth.
    The fiscal year 2017 Department of Energy budget proposal 
requests $32.5 billion for the agency, which represents a $2.9 
billion increase from the 2016 enacted level. This is a 10 
percent increase over 2016 levels and represents a significant 
investment in your agency.
    The bulk of this increase will support ``Mission 
Innovation,'' an initiative launched by the administration in 
conjunction with the Paris Climate Agreement. Mission 
Innovation would double research and development in clean 
energy technologies over 5 years--and the bulk of this 
significant initiative will be led by the Department of Energy. 
In order to meet the aggressive goals outlined in the Paris 
Climate Agreement, our country must be seriously dedicated to 
investment in clean energy technologies. To that end, Mission 
Innovation will mark a significant investment in our economy, 
our environment and public health.
    I support this budget request because it provides the 
Department of Energy with the tools necessary to catapult our 
country to the forefront of 21st century clean energy 
innovation. These robust increases in funding for the agency 
are critical to achieving our long-term climate objectives. 
Mission Innovation also holds the promise of creating an 
economic opportunity for our country on the scale of the Apollo 
program.
    There are some requests in this budget that are of specific 
interest to my State and district. In particular, I strongly 
support the $110 million in the request to support a new 
competition to establish ten Regional Clean Energy Innovation 
Partnerships around the country. Our country has many hubs of 
energy research and industry knowledge that can greatly 
contribute to furthering our clean energy future. In New 
Jersey, we have leading academic research institutions like the 
Rutgers Energy Institute and Princeton University. A number of 
major renewable energy companies are headquartered in our 
State, and we are home to the Princeton Plasma Physics 
Laboratory, a DOE facility doing cutting edge research on 
fusion energy. I know that New Jersey would be uniquely 
qualified to host one of these ten regional partnerships.
    I continue to support funding for the Northeast Gasoline 
Supply Reserve and again commend the Secretary for taking 
action to create this important stockpile of gasoline in the 
Northeast. As many know, when Hurricane Sandy struck in 2012, 
access to gasoline was severely limited in the aftermath of the 
storm, causing major problems in the region impacting 
homeowners, businesses and emergency personnel. I'm pleased 
that we have learned this hard lesson and put in place a plan 
to make the region more resilient when another storm strikes.
    All in all, the critical investments in clean energy 
included in this budget proposal will put our country on the 
right track to meet our carbon reduction goals and protect our 
environment and public health. It sets the stage for renewable 
energy innovations that will bolster America's clean energy 
economy. Mr. Secretary, I commend you for your leadership in 
this area, particularly during the negotiations that led to the 
landmark climate accord in December. I look forward to working 
with you on these exciting new initiatives to take action on 
climate change and expand our clean energy economy.
    Thank you. I yield back my time.

    Mr. Whitfield. The gentleman yields back. And that 
concludes the opening statements.
    And so, Mr. Secretary, once again, we are delighted you are 
here. We look forward to your testimony and appreciate your 
providing answers to questions that we will be asking.
    Sir, you are recognized for an opening statement.

 STATEMENT OF ERNEST J. MONIZ, SECRETARY, DEPARTMENT OF ENERGY

    Mr. Moniz. Thank you, Chairmen Upton and Whitfield, Ranking 
Members Pallone and Rush, and members of the subcommittee. I 
really appreciate the opportunity to be back with you again to 
discuss the budget.
    Mr. Whitfield. Is your microphone on?
    Mr. Moniz. It says it is on. Closer? Then I can't read. OK. 
The fiscal year 2017 budget request, as you said, totals $32.5 
billion, up from the $29.6 billion in the fiscal year 2016 
appropriation. However, I want to break it up into 2 pieces.
    The request for annual appropriations is $30.2 billion, an 
increase of $.6 billion or 2 percent above the fiscal year 2016 
enacted appropriation. In fact, both the National Security and 
the domestic appropriations requests are for 2 percent 
increases. And certainly this is part of the President's budget 
that satisfies the budget caps. Now, this is supplemented by a 
request totaling $2.3 billion in new mandatory spending 
authority. It includes $750 million for R&D within that, and 
$674 million for uranium enrichment D&D to which I will return.
    Just briefly turning to the major mission areas, the first, 
Building the Future Through Science and Energy, this total is 
$11.3 billion in discretionary funding and $1.6 in new 
mandatory. The principal driver for our science and energy 
budget increase is Mission Innovation. And I will return to 
this in more detail.
    The second general mission area, ensuring nuclear security, 
the fiscal year 2017 budget request for the National Nuclear 
Security Administration is for a 3 percent increase, supporting 
our broad programmatic objectives of maintaining the stockpile 
without testing now and well into the future, reducing the 
threat of nuclear proliferation, including support for 
implementation of the Joint Comprehensive Plan of Action, and 
proposing a major shift in our plutonium disposition strategy. 
And, finally, supporting the safe and reliable operation of our 
nuclear Navy.
    Our third major mission area is organizing, managing, and 
modernizing the Department to better achieve its enduring 
missions. The fiscal year 2017 budget request provides $6.8 
billion for these activities, including $6.1 for the Office of 
Environmental Management. That includes $5.45 in appropriations 
and $674 million in mandatory spending from the USEC Fund.
    The $1.6 billion USEC Fund is an existing, not new, 
mandatory spending account. And our proposal is in keeping with 
the spirit of the current authorization that revenues from the 
beneficiaries of past uranium enrichment services, rather than 
taxpayers at large, be used to pay the cost of D&D of the now 
shuttered facilities. And, indeed, Congress recognized in 2000 
the applicability of the USEC Fund to Portsmouth and Paducah 
D&D.
    The USEC Fund is, in fact, one of three funds that total 
nearly $5 billion that can be used in this manner. Finally, in 
this introduction, I want to acknowledge that underpinning all 
of these priorities is stewardship of the Department as a 
science and technology powerhouse for the American people, the 
American economy, with an unparalleled network of 17 national 
laboratories harnessing innovation to successfully address 
national security, boost manufacturing competitiveness, 
mitigate and adapt to climate change, and enhance energy 
security. And we are working very hard to strengthen the 
strategic relationship between the Department and our national 
laboratory network.
    I will also mention that starting last year, we highlighted 
cross-cutting R&D initiatives in the budget. Among these, in 
this year's request, our largest increases are for grid 
modernization and for the energy-water nexus initiative. The 
supporting budget details are provided in the 40-page statement 
for the record that I asked be inserted into the record. And I 
will use the rest of my time to describe Mission Innovation in 
a bit more detail.
    The fiscal year 2017 budget includes an increase of 21 
percent for clean energy R&D, in the discretionary accounts, 
supporting the U.S. Mission Innovation pledge. Mission 
Innovation is an unprecedented global initiative by 20 
countries that have pledged to seek to double, public clean 
energy, research and development over 5 years. The countries 
represent over 80 percent of global Government investment in 
clean energy R&D. So this initiative entails a highly leveraged 
situation for increasing R&D.
    Mission Innovation is long overdue. In 2010, the American 
Energy Innovation Council, a group comprised of CEOs of major 
American companies from multiple sectors, recommended that the 
Government triple its investment in clean energy R&D. The 
council made three key points: Innovation is the essence of 
America's strength, public investment is critical to generating 
the discoveries and inventions that form the basis of 
disruptive energy technologies, and, third, the cost of RD&D 
are tiny compared with the benefits.
    The pledge to seek to double the level of Government 
investment over 5 years is ambitious but needed. As was 
mentioned, Bill Gates, who was a leader of the AEIC, has 
recently met with a number of Members of Congress and has 
reiterated the need for greatly increased Government-sponsored 
energy R&D. The objective is to greatly expand the suite of 
investable opportunities, so opportunities for the investment 
sector, in clean energy to support economic growth and 
competitiveness, energy security, clean and affordable energy 
access, and enabling us and others to meet our environmental 
goals.
    I want to emphasize the scope of Mission Innovation. It 
spans the entire innovation cycle, from the earliest stage of 
invention, through initial demonstration, with a weighting 
towards the earlier stages. It includes all clean energy 
technologies, renewables, efficiency, nuclear, coal with carbon 
capture, and enablers, such as the 21st century grid.
    It is complemented by another leveraging opportunity, the 
Breakthrough Energy Coalition, a parallel initiative, launched 
simultaneously, spearheaded by Bill Gates, including 28 
investors from 10 countries, putting billions of dollars on the 
table, to invest in the new technologies originating from the 
expanded innovation pipeline in the Mission Innovation 
countries.
    These investors are prepared to be unusually risk tolerant, 
patient in getting their returns--they talk as long as 20 years 
in the energy business--and are prepared to take the most 
promising technologies end to end, of past values of debt, all 
the way to the marketplace.
    I would just single out what was already mentioned, the 
$110 million to establish regional clean energy innovation 
partnerships as not-for-profit consortia, competitively 
selected, to manage regional clean energy R&D programs focused 
on the energy needs, policies, resources, and markets of 
different regions of our country. The program design and 
portfolio composition for each partnership will be based on our 
regional priorities and set regionally. As research portfolio 
managers, not performers, the partnerships will link the 
resources and capabilities across universities, industry, 
innovators, investors, and other regional leaders to accelerate 
the innovation process and, frankly, to help develop the 
innovation ecosystems in different regions.
    This approach tracks recommendations from the National 
Research Council's ``Rising to the Challenge,'' which noted 
that until very recently U.S. Federal agencies have done little 
to support State and regional innovation cluster initiatives 
and recommended that, quote, regional innovation cluster 
initiatives by State and local organizations should be assessed 
and, where appropriate, be provided with greater funding and 
expanded geographically.
    I will just conclude in saying the Mission Innovation 
budget proposal also supports increased investments in 
successful, ongoing innovation programs, such as ARPA-E, Energy 
Frontier Research Centers, Advanced Manufacturing Centers, 
Bioenergy Centers, Advanced Transportation Technologies, 
Advanced Nuclear Reactor Technologies, Next Generation Carbon 
Capture Technologies, and more.
    With that, I will conclude my summary. I thank the 
subcommittee for its interest and support of our programs and 
look forward to our discussion. Thank you.
    [The prepared statement of Mr. Moniz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Mr. Secretary, thank you for that statement. 
And at this time, I would like to recognize the gentleman from 
Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the Chair. A special welcome, Mr. 
Secretary, on the anniversary of Texas Independence Day.
    Mr. Moniz. And post primary day.
    Mr. Olson. Yes, sir. As you all know, I work for over 
800,000 people, Texans, in the still-exploding suburbs of 
Houston. When they heard about President Obama's proposal to 
put a tax of $10 on a barrel of American crude oil, they all 
said what the heck, what is he thinking? This is insane.
    Now, a good friend and neighbor in the business said if we 
impose a tax on somebody, let's impose a tax on Saudi Arabia, 
OPEC, Iran, Russia. I have to know your role in this decision. 
Were you personally consulted before that proposal was 
announced?
    Mr. Moniz. I am not free to discuss, you know, internal 
administration discussions.
    Mr. Olson. Were you involved, I am asking you, were you 
involved in this decision? Not what the discussions were, were 
you involved as our Secretary?
    Mr. Moniz. No, but, I mean, the processes that go on 
involving presidential decisions are confined in the 
administration.
    Mr. Olson. Was anyone at DOE involved in that decision, 
anyone at all?
    Mr. Moniz. Well, the same response applies, I am afraid.
    Mr. Olson. OK. I see reports that this will increase pipes 
that pump, the Obama working poor, of 1 quarter per gallon of 
gasoline, 1 quarter. How do you think this so-called hit will 
affect these people? Do you think it will be good, bad? Any 
idea what is going to happen to the American people if this tax 
increase if it happens?
    Mr. Moniz. I would just put this in the context, if I may, 
of the transportation bill discussions that took part at the 
end of last year. And, of course, it is very good that we got 
at least a transportation bill for some years. But just to note 
that I think we all recognize, and had many discussions with 
Chairman Upton that funding our transportation infrastructure 
is something that is always there. It is a structural issue we 
need to address. And given that there has not even been an 
inflation correction to the traditional support for that fund 
for a quarter century, all I am saying is we need some kind of 
structural solution which the Congress will have to re-address 
now in a few years.
    Mr. Olson. How does this tax impact our global competitive? 
Are we stronger or weaker with this tax on American crude oil? 
Any idea?
    Mr. Moniz. Well, again, the extent to which the result is a 
greatly strengthened infrastructure means that our whole 
economy will be able to function more efficiently. That was the 
whole motivation in the end for both security and economy for 
the highway fund in the first place.
    Mr. Olson. One further question: I have a slide comparing 
the budget to the applied energy programs, in this 2007 budget, 
compared to the 2006 enacted budget. There are 17 programs 
here. Fourteen have increased funds for 2017. Three have 
decreased funds.
    One with the decrease, is the fund for cybersecurity for 
our grid. It goes down from, let's see, it goes down from $62 
million to $46 million, a 26 percent decrease, this upcoming 
year. A few weeks ago, Israel, their administrator confirmed 
that a cyber attack had threatened their grid. This week, the 
first of this month, New York Times wrote an article confirming 
for the first time ever, in the world's history, a successful 
attack had been carried out, by cyber warfare, to shut down the 
power grid in Ukraine. It has happened.
    We know the Atlantic, Pacific can't protect us from these 
attacks. And, yet, you want to decrease funding for this 
necessary thing to keep the grid open, going, going, going. How 
can you justify cutting funds in this world environment of 
cyber attacks on grids?
    Mr. Moniz. In fact, our overall cyber program, I will have 
to get the numbers assembled, is going up. Cybersecurity is a 
huge focus area for us. It appears in multiple places both in 
our national security side and our grid side. Frankly, one of 
the first things I did when I came to the Department was 
establish a cross-cutting cyber council.
    Our Deputy Secretary chairs a group with the utilities that 
meets I think 3 times a year. Cybersecurity is a major focus. 
We have given security clearances to select members of that 
utility community to share information. We are doing multiple 
exercises with the community. So cyber is actually a major 
focus area. I think maybe we will have to organize a few pieces 
together. And we would be happy to come and talk with you.
    Mr. Olson. I hear your words through actions, on Page 38 of 
your budget document, the third line, you decrease 
cybersecurity by 26.6 percent. It is right there in your 
document. I yield back.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I would like to recognize the gentleman from Illinois Mr. 
Rush, for 5 minutes.
    Mr. Rush. Thank you, Mr. Chairman. Mr. Secretary, I have 
many questions and few moments. So I would appreciate it if 
your staff would follow up with my office with specific details 
on some of the programs and initiatives that you and I have 
been engaged on.
    I would like for them to provide an update on the progress 
being made with the research labs in terms of their outreach 
and diversification initiatives. And I would like to see them 
focus on contracting and vending opportunities at the Argonne 
National Laboratory and at the Fermi National Laboratory, as 
well as any other labs you might, that you think might be 
significant.
    I also would like for you to forward information regarding 
diversity plans in terms of laboratory leadership, hiring 
practices, as well as providing internships and outreach 
programs to 10 and 12 schools and minority-serving higher 
education institutions.
    And, finally, I would like to get more information on the 
minority internship program so that I and others on this 
committee can ensure that this program is being continually 
strengthened well within the next administration, regardless of 
who might or might not be in the White House.
    Mr. Secretary, can you speak to the subcommittee on the 
importance of continuing the work of the MIE initiative, 
regardless of what administration is in office? And also what 
type of impact might the 21st Century Workforce Bill have on 
the many institutions with its focus on minorities, women, 
veterans, and displaced coal workers on the energy industry and 
on those targeted communities as well as on the U.S. economy as 
a whole?
    Mr. Moniz. Thank you, Mr. Rush. Actually, if I may, first, 
Mr. Olson, just note that I believe our cyber cross-cut total 
budget is $333 million proposed, which is an increase over 
fiscal year 2016. But we can provide that t.
    So if I may go back to the question, first of all, thank 
you, of course, for your constant support in all of our 
efforts. If I may mention a few things: Well, first of all, 
continuing the Minorities in Energy Program, I certainly hope 
that is something that the next administration does. I think we 
are gaining traction. I think it is absolutely critical. In 
fact, as you said, it is minorities in energy, women in energy. 
It is addressing the jobs opportunities and challenges we have. 
Veterans, displaced workers, like in coal country, these are 
all part of our focus area.
    Minorities in Energy, I think, is making great progress. In 
fact, today, as part of that, actually right now, this week, is 
My Brother's Keeper week at the laboratories. We have 11 
laboratories working on that. I might say the lab directors in 
terms of diversity have really stepped up. It took a little bit 
of a nudge, but they have really stepped up.
    Sixteen out of the seventeen physically attended a full 
workshop in terms of diversity, with professionals coming in to 
help, how to go there. And also we think very important is 
transparency. Some of the labs are posting their employee 
composition, women and minorities. Sometimes they don't look so 
good yet. Argonne, for example, is about 15 percent women and 
10 percent minorities. Berkeley is about double that in both 
categories. But I think this idea, this transparency means 
there is a real commitment to understand where we are and to 
improve it.
    Mr. Rush. Mr. Secretary, I only have a few minutes--a few 
seconds left. Would you address the relationship between the 
coal workers in Appalachia and the urban displaced and out-of-
work workers in districts like mine? Because there seems to be 
a straight line between displaced coal workers in Appalachia 
and the south side of Chicago and other urban districts. How do 
you view that relationship?
    Mr. Moniz. I have to say, I don't know the numbers. I don't 
know quantitatively, although that is a very interesting 
question. But I can imagine, frankly, there has been a 
historical pattern of that type in terms of outflow, for 
example, to major urban centers like Chicago when there have 
been job losses, job challenges elsewhere.
    We are trying to address I would say on both sides, for 
example, in Chicago specifically, the work of Argonne 
Laboratory in opening up to minority contractors, et cetera, I 
think is important.
    In coal, the POWER Plus Plan has many, many components 
where we are trying to help. It is not only DOE, of course, 
this is administration-wide, Department of Labor, et cetera, 
providing training opportunities, looking at new economic 
opportunities. In fact, I would mention, and this is of direct 
relevance to Kentucky, for example, we formed 2 years ago a 
jobs strategy council because of the whole dynamic issue of 
jobs in the energy sector. We are proposing in the fiscal year 
2017 budget, that that become, very modestly funded, but become 
an office, a budget line to establish a function in the 
Department that is specifically looking at jobs and pulling it 
together.
    Mr. Rush. I yield back.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Michigan, Mr. Upton, for 5 minutes.
    Mr. Upton. Thank you, Mr. Chairman. Secretary Moniz, in 
2012 Congress passed the American Medical Isotope Production 
Act of 2012. And in testimony before this committee in 2009, as 
that legislation moved through the committee, the Department of 
Energy's representative projected domestic production 
facilities that DOE was funding could come online as early as 
2013. To date, we know that none of the projects DOE was 
funding have come online. And a number have been canceled.
    I am interested to know what is the status of domestic 
production facilities? And can you help us really move this 
forward?
    Mr. Moniz. Yes, particularly for the moly-99 issue, which 
is the important one, there are three programs that we are 
supporting with three different technologies. One of them, 
SHINE, is an accelerator that will use low enriched uranium. 
General Atomics is developing a technology. And a company 
called NorthStar Medical Radioisotopes is developing pathways 
through neutron capture, et cetera. The NorthStar schedule is 
to go to first production in October of this year. I think 
General Atomics is looking to 2018. And SHINE is looking to the 
beginning of 2019. So, over the next 3 years, we should have 
three different companies coming on with moly-99.
    Mr. Upton. Good. Good. Last week, our Subcommittee on 
Oversight took testimony that highlighted how critical Cabinet-
level leadership, particularly through you, is for the success 
of DOE and particularly its nuclear security mission. So I know 
that our committee is going to continue to look carefully at 
what is necessary to ensure that the Department is managed to 
meet its nuclear weapons responsibility and structured to 
ensure that they are executed to their full potential. I just 
want an assurance from you that if it does require legislative 
change, if you come to that conclusion, will you be able to 
provide us the technical assistance to enable for you to get 
the job done?
    Mr. Moniz. I certainly will, absolutely. If I may just 
say----
    Mr. Upton. It should be an easy yes.
    Mr. Moniz. Excuse me?
    Mr. Upton. It should be an easy yes.
    Mr. Moniz. The answer is yes. Could I add to the yes?
    Mr. Upton. Yes, you can.
    Mr. Moniz. I just want to note that I would recommend that 
you might take a look at the letter I wrote to the Congress at 
the beginning of the Mies-Augustine report, where I spell out 
very, very clearly our posture with regard to the overarching 
recommendation of the Mies-Augustine report. And I think that 
gives you the flavor of the assistance that I would be happy to 
provide.
    Mr. Upton. Great. I think we put it into the record as 
well, so all members can see it.
    [The information appears at the conclusion of the hearing.]
    Mr. Upton. Thanks, again, for being up here. And, again, as 
I talked to Chair Murkowski earlier in the week, we are 
encouraged that they may be able to finish that bill as early 
as tomorrow. And I look forward to working with you as we work 
on the conference to get it done.
    Mr. Moniz. And, again, I am happy to provide as much 
technical assistance as possible to both Chambers.
    Mr. Upton. Thank you.
    I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, the Chair recognizes the gentleman from New 
Jersey, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Secretary, last week, this committee's Subcommittee on 
Oversight and Investigations held a hearing on two valuable 
reports by distinguished panels that examined DOE's labs and 
the Nuclear Security Enterprise. And, in particular, I found 
the findings of the Congressional Advisory Panel on the 
Governance of the National Security Enterprise, also known as 
the Augustine-Mies panel, to be quite sobering. Both the panel 
and the panel witnesses who testified before our committee 
reported that the National Nuclear Security Act, which created 
a separately organized National Nuclear Security Administration 
within DOE, had not worked as intended. And the panel also 
reported that this has led to a number of serious structural 
and cultural problems within the nuclear complex. The panel 
further concluded that if not addressed, the dysfunctional 
governance practices could put the entire Nuclear Security 
Enterprise at risk over the long term.
    Obviously, you are familiar with this. So, Mr. Secretary, 
the panel studied various approaches to fix the problems they 
found. After evaluating several governance models, the panel 
concluded that Congress should reintegrate NNSA into DOE, 
clarify confused authorities, and place the responsibility and 
accountability for the nuclear mission back on the shoulders of 
a qualified Secretary.
    Mr. Secretary, I know you are familiar with this 
recommendation. So let me just ask, do you support that 
recommendation? And why do you think the panel thought it was 
so important?
    Mr. Moniz. That is a very sophisticated question and 
challenging. I think the issue is that their primary 
recommendation, as you said, after evaluating different 
governance models, to look at the reintegration pathway, was, 
to be perfectly honest, the opposite of what many thought was 
going to be the recommendation. Upon looking at it, they found 
that there were two problems, which I think we are working to 
overcome, but, you know, in terms of the long term, it might 
need a congressional look. One is management inefficiencies. 
But probably most important is the role of a Cabinet member in 
representing that mission at the highest levels. And I do serve 
on the nuclear national security subgroup of the National 
Security Council, for example.
    So what they found was that I think an unintended 
consequence of the legislation is that, to be perfectly honest, 
the Armed Services Committees do not spend as much time, shall 
we say, with the Secretary anymore. So I think that is really 
the point. By the way, I should say the President has appointed 
four people, frankly--me; Deputy Secretary Sherwood-Randall; 
General Klotz, NNSA Administrator; and Madelyn Creedon, the 
Deputy, the four leadership positions--with substantial 
national security experience. But the question is, What is 
going to happen over time? And that is where I would certainly 
invite the discussion.
    Mr. Pallone. All right. Well, I just want you to know that 
the committee intends to continue its bipartisan oversight into 
how we can make the Nuclear Enterprise function more effective 
and efficient. And we certainly intend to further examine the 
panel recommendations and hope to work closely with you to 
strengthen this critical national security endeavor.
    And I did want to thank you, you know, for all you have 
done as Secretary. I think your work on the nuclear 
negotiations with Iran, among other efforts, demonstrate how 
you are precisely the type of qualified Secretary that the 
Augustine-Mies panel discussed. Thank you.
    I yield back, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back.
    At this time, I will recognize the gentleman from Illinois, 
Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. We are both getting old. We both 
have reading glasses now. It is good to have you.
    On Monday, Chairman Upton and I requested that the 
Government Accountability Office assess DOE's plan to resume 
consideration of the Yucca Mountain license application, 
including assuring DOE maintains the necessary infrastructure, 
contractors, personnel to assure that the Yucca Mountain 
project can resume. Do I have your commitment that the 
Department will cooperate in good faith with the GAO as they 
conduct this review?
    Mr. Moniz. We will always cooperate with Congress and the 
GAO.
    Mr. Shimkus. Do you commit that the Department will not 
take any unilateral actions that will set back the Yucca 
program further, including anything to alter the physical 
structure or by allowing contracts that support the Yucca 
Mountain project to lapse?
    Mr. Moniz. I don't know exactly the situation of that 
contract that you are referring to. I would have to get back to 
you for the record.
    Mr. Shimkus. Please do. Because, as you know, I monitor 
this as closely as I can.
    Mr. Moniz. Yes, sir.
    Mr. Shimkus. Now I want to move to boreholes for a second. 
You have strongly advocated for the development of boreholes to 
dispose of a small amount of DOE's inventory of defense nuclear 
waste. This initiative is concurrent to your initiative to 
develop a, quote-unquote, ``consent-based'' siting process, 
which, as you know, contradicts the Nuclear Waste Policy Act--
contradicts, or it is not in compliance with. There is no 
provision for this in the current law.
    In January, you, DOE announced it was awarding a contract 
to drill a test borehole in North Dakota. I am sure you are 
aware that there has been substantial public pushback on that 
project. I would like to ask a couple of questions about 
boreholes and your proposal for consent-based siting. In the 
interest of time, if you can, you know, I would like a yes or 
no so I can get--there are only about four or five of them 
here.
    Are you aware of the Office of Nuclear Waste Negotiator 
that was established by the Nuclear Waste Policy Act?
    Mr. Moniz. Yes. I am aware of it.
    Mr. Shimkus. Are you aware that the negotiator made 
available funding to study the potential of interim storage 
nuclear waste storage facilities? They did----
    Mr. Moniz. Historically. Historically, to start with.
    Mr. Shimkus. Are you aware that in 1991--1991--county 
commissioners in Grant County, North Dakota, applied for these 
grants?
    Mr. Moniz. No, I was not aware of that.
    Mr. Shimkus. OK. But they did. Are you aware that after 
applying for the DOE grants, all the county commissioners were 
recalled by their constituents?
    Mr. Moniz. Well----
    Mr. Shimkus. They were. Based on historical experience in 
North Dakota, why did you choose to even try to award a grant 
to a North Dakota-based team?
    Mr. Moniz. Well, obviously, I wasn't involved in the 
selection. But there was a competition. There were a number of 
proposals. And the scientific review team felt that this was 
scientifically a very good place. And, of course, we are now 
working in terms of another location that is appropriate.
    Mr. Shimkus. Well, it is important because, as you probably 
know, yesterday the Pierce County commission in North Dakota 
unanimously rejected your borehole project. How does this now 
impact your deep borehole proposal?
    Mr. Moniz. Well, as I said, it is actually in the contract 
that if for any reason the site is unavailable, that we will 
have another site. And that work has been going on now since 
the initial problems----
    Mr. Shimkus. OK. Here is my problem. When I taught high 
school, the executive branch, per the Constitution, is designed 
to enforce the laws of the land. We do that telling kids that 
they have agencies and Secretaries that help enforce the law. 
It is unfortunate that you have been part of an administration 
that is not enforcing the Nuclear Waste Policy Act. And it is 
subverting the intent of the law. And it is particularly 
troubling in that this, quote-unquote, ``consent-based'' 
process, which you use to discourage, attack, obfuscate the 
long-term location of Yucca Mountain and use a State-based 
discussion where you now talk about boreholes, you try to ram 
it through county-based organizations without even a State-
based discussion. So the Department of Energy continues to 
hypocritically move to obfuscate, delay, break the law. And I 
wish, for the sake of the republic, that the administration 
would abide by the law.
    And I yield back.
    Mr. Moniz. Chairman, may I respond? It is a very important 
point.
    Mr. Whitfield. Yes.
    Mr. Moniz. First of all, as we have said before, we are 
following the law. But I want to specifically address----
    Mr. Shimkus. Mr. Chairman--you are not following the law. 
The Nuclear Waste Policy Act is pretty clear: There is no 
authority for interim storage or interim sites.
    Mr. Moniz. And that is why we don't have the interim 
storage site.
    Mr. Shimkus. The Nuclear Policy Act is a conjunction of 
both spent fuel and defense waste. There is no bifurcation of 
where nuclear waste goes.
    Mr. Moniz. Well, may I just focus on the----
    Mr. Shimkus. If you are going to spend additional time, 
then I will spend additional time.
    Mr. Rush. Mr. Chairman?
    Mr. Whitfield. Yes, Mr. Rush.
    Mr. Rush. You granted the Secretary's request to respond. 
So I think we should allow him to respond.
    Mr. Shimkus. Would my colleague yield?
    Mr. Rush. No. I want to----
    Mr. Shimkus. Your questions were about wouldn't--the 
administration following the law on minority hiring. And we 
have an administration that is not following the law from a 
different administration. It is hypocritical. And it is wrong.
    Mr. Rush. Mr. Chairman, will we allow Mr. Secretary to 
answer the question and to respond to the question? That is the 
reason why you granted him the time. So please allow him to 
respond without any interference from any member of the 
subcommittee.
    Mr. Whitfield. Well, let me just say that I think Mr. 
Shimkus raised an important point. I know there is legal action 
on this as well.
    Mr. Secretary has asked for an opportunity to respond, so I 
will grant him that opportunity.
    Mr. Moniz. Thank you, Mr. Chairman.
    I will just respond narrowly to the North Dakota borehole. 
That's all I was responding to. I want to emphasize that the 
statement that this somehow is not consistent with a consent-
based approach does not apply. This is not a nuclear facility. 
This is a scientific experiment which clearly may have, 
depending upon results and where analysis goes, may have 
implications as a useful high-level waste disposal approach. It 
also may be useful for engineered geothermal systems. This is a 
science experiment. It did not have any consent-based process. 
And we never do that for grants for science experiments. So it 
is apples and oranges.
    Mr. Whitfield. OK.
    At this time, I recognize the gentleman from California, 
Mr. McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Thank you for coming to see us, Mr. Secretary.
    I share my colleague from Illinois' concern about the 
nuclear waste lack of progress and the urgency to move forward 
on that. Are you still required to recuse yourself from 
questions on fusion?
    Mr. Moniz. No.
    Mr. McNerney. Good. Well, the superconductor technology 
advancements have presumably increased the progress of fusion. 
Could you talk about where we are with that fusion research? Is 
there any sort of timeframe where we can expect to see good 
results and maybe commercialization?
    Mr. Moniz. Well, we are still, certainly in terms of the 
large tokamak approaches, we are still quite some ways away. 
The ITER project, which is at a critical point--we need to have 
a report to Congress on May 2--it has new leadership, by the 
way, which has really, I think, improved dramatically the 
project. But even with their new plan, they are talking about 
first plasma at the earliest in 2025, but deuterium-tritium 
only into the 2030s. So that is just even to begin on the big 
ITER experiment. Domestically, we are continuing the work at 
Princeton and in San Diego. The MIT program shuts down this 
fiscal year, which accounts for some of the decrease in the 
budget.
    Now, what is interesting is how in nuclear, both fission 
and fusion, there is a lot of innovation going on in the 
private sector, including in California. I cannot guess when 
this might become commercially feasible. But there is a lot of 
both building major demonstrations, like ITER, like what is 
going on in Germany, Princeton, California, but also with novel 
concepts.
    Mr. McNerney. Well, I am eternally optimistic----
    Mr. Moniz. I am sorry, and another thing is our ARPA-E 
program, which takes risky technologies, also issued grants 
last year to novel fusion ideas that would operate in some 
intermediate density range, which we can come and discuss with 
you if you would like.
    Mr. McNerney. I would like to ask you about the DOE's 
effort to expand work on the water-to-energy nexus. What are 
the Department's priorities in that regard? And I am developing 
legislation sort of parallel to that, so I am kind of 
interested in this subject.
    Mr. Moniz. Yes. Well, this is one of--our two biggest 
increases, I said earlier, for our crosscutting activities are 
grid modernization and energy-water. The energy-water, we are 
proposing roughly a tripling of the budget. We think the more 
you look at it, the more important it becomes. And it would be 
very wide-ranging, everything from competing for a new 
desalination hub to research and system analysis for things 
like wastewater treatment and the like. So it would be a pretty 
comprehensive program. The last thing I will just say on that 
is I don't know if this will materialize, but just 2 weeks ago, 
when Minister Steinitz was here from Israel, where they are 
very advanced in managing water, we are talking about the 
possibility of strong collaboration there.
    Mr. McNerney. Well, we should collaborate as well in our 
offices.
    Mr. Moniz. Great.
    Mr. McNerney. I want to talk about carbon capture and 
sequestration. The technology has had some setbacks. I think 
one of the projects canceled. But, in my opinion, the coal 
industry, mining, coal burning in the future is going to depend 
on some sort of carbon capture and sequestration. Do you share 
that view that the future of the coal industry depends upon a 
good carbon capture and sequestration?
    Mr. Moniz. Absolutely. And I would note some good news, 
actually. There are three major projects, a megaton of 
CO<INF>2</INF> per year scale, one that we have helped support 
in the United States. One is in Texas. It is Air Products. So 
these are industrial facilities. That has been operating for 3 
years. The second one in Illinois, ADM, that probably will 
start within a month. And third is a coal project, coal power 
plant in Texas, again, Petra Nova, which will start probably in 
a year or so, maybe a bit less. So those are all going forward.
    Also, I want to emphasize: In the budget, we also propose 
new smallish scale pilot plants to look at novel technologies 
like oxy combustion and chemical looping. And we also are 
reproposing to the Congress what would ultimately be about a $5 
billion set of tax incentives for carbon capture and 
sequestration.
    Mr. McNerney. All right. Thank you, Mr. Secretary.
    I yield back.
    Mr. Whitfield. The gentleman's time has expired.
    At this time, the Chair recognizes the gentleman from Ohio, 
Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman.
    And, Mr. Secretary, good to have you back before us in the 
committee. Mr. Secretary, in order to develop the next 
generation of advanced nuclear technologies, private industry, 
the Department of Energy nuclear research activities, and the 
NRC have all aligned efforts to research, demonstrate, and 
license advanced nuclear technologies. I am drafting 
legislation to examine the nexus between DOE's nuclear research 
programs and the NRC's licensing capabilities, and earlier this 
week, my office sent over the discussion draft. And I look 
forward to your department reviewing it with technical 
comments. I would like to ask, how is DOE communicating with 
NRC to provide a pathway for your research activities to be 
carried through the NRC's licensing process?
    Mr. Moniz. First of all, of course, we would be delighted 
to help with assistance on your draft. With the NRC, there are 
several things. One is, I should say, this is not advanced--and 
this is not for novel reactors, but we have from the beginning 
had NRC directly engaged in our nuclear simulation hub at Oak 
Ridge, because in the end, the products of that will be very 
important for licensing of at least evolutionary new 
technologies. In terms of alternatives, we have a workshop 
coming up--I believe coming up, or maybe it already happened--
with NRC in terms of more advanced non-light water reactor 
technologies. We are funding two companies, company-led 
consortia: one to develop pebble bed reactors and one to 
develop molten salt reactors. We are in very strong 
communication with NRC, because I think you put your finger on 
something that is critically important. If they are not 
involved early on in the work, then the regulatory process 
could go on much, much longer.
    Mr. Latta. Thank you.
    And if I could kind of switch over to cybersecurity, 
because as you know, here on the committee we have had multiple 
hearings, especially when we are talking about how the 
infrastructure could be affected by cyber attacks. I served on 
a couple different cybersecurity task forces. And what is the 
Department's strategy for addressing potential cybersecurity 
challenges presented by existing and future grid and energy 
infrastructure technologies? And one of the things also I would 
like to ask is, because I am looking at it on your budget, it 
shows a decrease from about $62 million to $46 million this 
year for cybersecurity for energy delivery systems. So you had 
a decrease. And so our concern is we want to make sure that we 
are beefing up. And I know, across not only my district or the 
State of Ohio but across the country, there is always that 
great concern as to what is happening on the cyber side because 
of how vulnerable we could be to an attack.
    Mr. Moniz. That is one budget line. As I said earlier, if 
you actually look at our cyber cross-cut, I have to say, it is 
not a major increase, but we do have an increase proposed for 
our cyber cross-cut. We are working in the technology space, 
but we are also carrying out a number of other activities with 
the energy infrastructure people, with the heads of utilities.
    Mr. Latta. Could you just kind of go into detail what that 
might be, what some of those might be that you are working on?
    Mr. Moniz. Perhaps we could come by and have some people 
come to your office and describe that in detail. But, for 
example, the Deputy Secretary, again, convenes regularly a 
group specifically on energy infrastructure protection. Cyber 
is a big part of that. I can say it involves people like Tom 
Kuhn, the head of EEI. On the private utility side, the chair 
of that now is Tom Fanning, the head of Southern Company. And 
there are quite a few others. And they are engaged in table top 
exercises that we run. Because they have been given some 
clearances, they are briefed on some cyber attacks and what are 
best practices to try to avoid that. The fact is, I mean, you 
know, cross your fingers, obviously, the intensity of cyber 
attacks on U.S. energy infrastructure is certainly increasing 
year by year. So far, we have not had a major hit. But we have 
seen in other parts of the world, there have been some pretty 
serious cyber hits. And so we are always looking into those. 
Frankly, we had a team in Ukraine after their incident, 
analyzing that and sharing that with our utility leaders, for 
example.
    Mr. Latta. Thank you very much.
    Mr. Moniz. We could say more in a different context.
    Mr. Latta. Thank you.
    Mr. Chairman, I see my time has expired, and I yield back.
    Mr. Whitfield. The Chair now recognizes the gentleman from 
Iowa, Mr. Loebsack, for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair.
    Good to see you, Mr. Secretary, as always. Thanks for 
taking the time to come and testify today. I do want to add my 
thanks for your work on the Iran deal. I thought that was 
really wonderful on your part, all the effort you put in. I 
want to focus a little bit on renewable energy today. As you 
might imagine, I am from Iowa, got some thoughts about that. As 
you know, recent data from the U.S. Information Administration 
showed that Iowa now is the first and the only State in the 
Nation to generate more than 30 percent of its energy from wind 
power. Last year, we hit 31 percent. I am very proud of that. 
Something I bring up quite often in these fora. It is great 
news, not only for my home State but, of course, for the 
Nation's renewable energy sector. When we invest, I think we 
can all agree, when we invest in renewable energy, like solar 
and wind, we do lower our dependence on foreign oil, and we 
rein in CO<INF>2</INF> emission. In fact, last week, your 
agency released a report stating that the wind production tax 
credit, which I am thankful we got extended for 5 years----
    Mr. Moniz. We are, too.
    Mr. Loebsack [continuing]. And solar investment credit, the 
investment tax credit, will drive a net increase of 48 to 53 
gigawatts of energy from renewable sources by 2020. And these 
investments not only do help to produce clean energy, more 
clean energy, but they also help to produce thousands of jobs. 
And I was happy to push as hard as I could for both of those 
tax credits. We got 5 years for each, as you know.
    You also know that my State is a leader on biofuels. You 
are very aware of that. And along with your agency's bioenergy 
technology program, which develops and advances America's 
energy future, it has positively affected I think our domestic 
energy sources. And I thank you for all the great work you have 
done there. I also note that U.S. Department of Agriculture, 
under the leadership of Tom Vilsack, our former Governor, has 
already made investments in terms of infrastructure through the 
biofuels infrastructure program.
    But I am going to introduce a bill later today to help 
Americans have a greater choice at the pump. And that has 
already been done to some extent through the BIP program, and I 
am very appreciative of what USDA has done on that front. But I 
think we have got to go further. My bill is the REFUEL Act, 
Renewable Fuel Utilization, Expansion and Leadership Act. And 
it will create new and retrofit existing infrastructure, 
including pumps for biofuels and hydrogen, tanks, piping, and 
electric vehicle chargers. Too often, I think we have got 
infrastructure constraints out there. I know a lot of this has 
to do with USDA, not necessarily with DOE, but it is something 
that I still want to bring up, make sure that folks know that 
this act I think is going to help bridge the divide by making 
important investments in the infrastructure needed to provide 
consumers with choices at the pump. I am going to come back to 
that.
    But I first want to ask you--because that will be my second 
question, if you see any more opportunities on the part of the 
administration to advance the infrastructure aspect of this. 
But the first question has to do with the budget of DOE in 
terms of energy efficiency and renewable energy programs that 
the President has requested $156 million for the wind energy 
program. And I support that fully, as you might imagine. But, 
last year, roughly $4 million was set aside for distributed 
wind energy, something that we really don't talk that much 
about. We talk about the big projects, projects that 
MidAmerican Energy is doing, for example, in Iowa. But this 
type of wind energy I think is particularly important to my 
constituents and throughout the country. And I am curious to 
know if you plan to invest more in distributed wind, and if so, 
what are you hoping to achieve with the greater investment?
    Mr. Moniz. Well, thank you, and by the way, I will be in 
Iowa in the beginning of May.
    Mr. Loebsack. Fantastic.
    Mr. Moniz. That will be great.
    There are many directions in wind that remain very, very 
interesting for development. I will come to the distributed, 
but I would also note that a report last year noted how really 
pushing to higher hub heights could be a major--open up major 
resources. Of course, there is the offshore wind that we are 
still working to try to get costs down. There are really more 
unusual options, like ARPA-E funded something called a flying 
wind turbine, which would go to a thousand feet. But 
distributed wind, I completely agree with you, has been kind of 
sometimes lost in the shuffle. And I think part of it is also 
one is not never quite clear what one is talking about with 
distributed wind.
    Mr. Loebsack. I understand.
    Mr. Moniz. Should it be defined in terms of scale of the 
wind, or is it just where it happens? It could be a large wind 
turbine that happens to be close to the load. So I think it is 
pretty complicated. I believe this year, in fiscal year 2017, 
we do continue distributed wind. It is at a modest scale; it is 
$4.5 million or something like that, but something we would be 
happy to discuss more with you.
    Mr. Loebsack. Thank you. I do appreciate that. I have run 
out of time, but I will submit another question for the record 
having to do with infrastructure.
    Thank you, Mr. Chairman.
    Mr. Whitfield. The Chair now recognizes the gentleman from 
West Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    And, Secretary, just to get started on a series of 
questions, but the first one----
    Mr. Moniz. I am having a hard time hearing you.
    Mr. McKinley. First question, just a yes or no, if you 
could, before I get into a little bit more meat. With the NETL 
facility, now that the CRENEL Commission has made a 
recommendation that we go from a GOGO to a GOCO, do you support 
their final decision, or are you going to maintain it as 
Government-owned, Government-operated?
    Mr. Moniz. No. I have answered that in the past, and the 
answer is the same, that we will continue with the GOGO 
arrangement.
    Mr. McKinley. Thank you. That gives some assurance to 
everyone. The earlier statement from Chairman Whitfield that he 
was concerned about the direction of the Department, DOE--and I 
share that, because I think that the focus has been trying to 
force the existing coal-fired powerplants to add carbon capture 
and storage as an after-market retrofit, even though virtually 
every nation on the globe has turned their backs on CCS. Yes, 
they will do it in research, but they are not going to force it 
like we are. So it seems that DOE is really hell-bent on 
pushing CCS. Even China and India, for example, they are not 
forcing CCS on their facilities, but rather, they are, as you 
know--I assume you know--they are building new high-efficiency 
coal-fired powerplants instead of CCS.
    We recognize that energy efficiency is the best short-term 
solution to our emission controls, and CCS is a long-term 
solution to this. And the President has said, as recently as 
back in February, the carbon capture is just really expensive 
right now. So I don't understand why DOE continues to chase 
this rabbit, I think the wrong rabbit, of pushing CCS on our 
utilities when they should be encouraging high-efficiency 
facilities.
    Now, just some quick examples. Our two most efficient 
powerplants in America--Turk in Arkansas and Longview in West 
Virginia; one an ultra-supercritical and the other one being 
just an advanced supercritical--they are built at half--at 
half--the cost of Kemper. So it just kind of makes me think 
about--it feels like DOE is trying to retrofit pushing in a 
$50,000 engine into an old car instead of just buying a new 
car. It is just simply we keep trying to make people retrofit, 
because you put up so many roadblocks, other people in the 
administration, in building new coal-fired powerplants.
    So shouldn't the DOE switch its priorities? Or what would 
be the problem with switching its priorities so that we would 
be more focused on the high-efficiency, low-carbon-emitting, 
advanced supercritical and advanced supercritical plants across 
this country? Are we missing something? Why aren't we doing the 
one that is more immediate that we can get some success with?
    Mr. Moniz. Well, first of all, of course, I completely 
agree with your focus on energy efficiency as critical. That is 
a given. And by the way, I would say that, with India, you are 
certainly correct; India is not pursuing CCS. But China 
actually is.
    Mr. McKinley. I just came back from China in October, and 
the NEA in China said they are not going to promote CCS. We had 
that very clear in our meetings with him. They said it is too 
expensive; they are not going to do it.
    Mr. Moniz. Well, I will be there in a couple weeks, and I 
will check in. The last time we met with them, which was 
recently, they said the opposite. OK.
    Whatever the case, in terms of our program, obviously, 
look, our main focus at DOE is in the kind of the technology 
development and RDD&D with the long-term view, preparing 
options for the future. We don't make, in the end, the 
marketplace choices.
    Mr. McKinley. Could we not be developing with fluidized bed 
combustion using calcium oxide as an additive in the formula? 
That is a very economical solution that other people are 
looking at. It is one with fluidized bed; you can use some 
pretty low-grade coal. That is one of the things that China 
said they were considering using it because they don't have the 
same quality coal that we have here in America. Now, I am 
running out of time on this.
    Could I just make sure that I ask at the very end, could we 
get you to come to Longview and see the tremendous efficiency 
that is operating there without CCS, and how effective they 
have been able to do that at half the cost of a CCS facility? 
Would you be willing to go?
    Mr. Moniz. I am sorry; where is Longview?
    Mr. McKinley. Three and a half hours away.
    Mr. Moniz. No, is it in West Virginia?
    Mr. McKinley. Yes, it is. Maybe when you and I get to NETL 
again----
    Mr. Moniz. What I have said is, I would definitely like to 
get to West Virginia.
    Mr. McKinley. It is within a stone's throw of NETL facility 
that we could go to----
    Mr. Moniz. Congressman, I would like to go to West 
Virginia, and we will work on the itinerary.
    Mr. McKinley. Thank you very much. I appreciate it.
    Mr. Moniz. But I would just add, if I may, I won't go into 
detail, but we do have a bunch of R&D going on that is quite 
relevant to higher efficiency coal plants: supercritical 
CO<INF>2</INF> cycles, advanced materials that you need to go 
to higher temperatures and the like. We can discuss that.
    Mr. McKinley. I am told from the people there it is sort of 
a drop in the bucket. It is more window dressing than sincere. 
So you and I can have more of a conversation.
    Mr. Moniz. We can discuss that. But we have a substantial 
increase in the supercritical CO<INF>2</INF>
    cycle, for example.
    Mr. Olson [presiding]. The gentleman's time has expired.
    The Chair recognizes the gentlelady from Florida, Ms. 
Castor, for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. It is good to have you here.
    Could you please provide the committee with an overview and 
your outlook on how we are doing on reducing carbon pollution? 
How are we doing here in the United States? What are our 
challenges and opportunities? And after the Paris agreement, 
give us a short sketch of the world community and whether or 
not you have seen countries begin to implement their 
commitments.
    Mr. Moniz. Yes. Well, overall, if you look over the last 
years, we are doing quite well in CO<INF>2</INF>. This last 
year, we did have a little bit of an increase. Low oil prices 
had something of an effect. But, overall, we would say we are 
still on track for being about 17 percent lower CO<INF>2</INF> 
in 2020 relative to 2005, which was the first target for us to 
hit. So that is going on, but it will mean continuing to push. 
In fact, following on Mr. McKinley's question, certainly on the 
demand side, the efficiency side will be absolutely critical 
for maintaining the momentum.
    Internationally, I think if you look at the major emitters, 
of course, the EU as a whole is making tremendous progress. 
China is the largest individual emitter, and they are making 
progress as well. And, of course, they have also announced--we 
will see what the implementation plan is--but they have 
announced a cap-and-trade system to put into place, actually I 
think later on this year or maybe next year.
    So I think countries are taking this quite seriously. In 
fact, I would argue that the progress made in Paris was enabled 
by things like the U.S.-China announcement. But they had impact 
only because both countries were actually walking the talk.
    Ms. Castor. And I understand here in the U.S. that, even 
with the hiccup on the Clean Power Plan at the Supreme Court, 
still, utilities overall and States and communities are moving 
toward the carbon reduction goals in any event because they 
know it is critical to the future of our country. Is that your 
understanding, too, that the markets are changing; the market 
for clean energy innovative solutions is growing at this time?
    Mr. Moniz. Absolutely. Again, I would just reiterate what 
you implied, the Supreme Court ruling was simply a stay; it was 
not a judgment, obviously, on the plan. And we feel pretty 
confident about it. But independent of that, it is not uniform, 
but many States and utilities are continuing with their 
planning for implementation because, frankly--and look, much of 
industry is acting already in the conviction that there will be 
increasing constraints on carbon emissions. In fact, for years, 
some of the major companies have included that in their capital 
planning because, you know, they commit capital for a long 
time. What they would like to get is some assurances, some 
stability, and then--they know how to run a successful business 
if you just give them the rules.
    Ms. Castor. Right. Sometimes there is a disconnect between 
what happens here on Capitol Hill and what is really happening 
out in the business world and locally, too. But I want to 
compliment you for what you have proposed to do in the upcoming 
budget. On Mission Innovation, you have launched this--after 
the landmark global agreement in Paris, you proposed double 
funding for Government-wide clean energy R&D over the next 5 
years. Your agency is set to be the leader in this effort. And 
I look forward to working with you to make this a reality. I 
was pleased to see robust funding for this initiative in the 
budget request.
    Talk to us a little bit more about what you envision for 
Mission Innovation and how this is going to benefit all facets 
of our energy economy.
    Mr. Moniz. Well, maybe the best thing is just to use an 
example of the kind of thing that we have in mind here. And I 
will use ARPA-E--and by the way, for all the members, the ARPA-
E summit is going on an as we speak out at the Gaylord Nelson 
Convention Center. And I invite all of you to go out there and 
see really neat technologies. But we just announced the new 
performance results of ARPA-E. And of the first roughly 200 
projects that were funded, roughly a quarter have received 
$1.25 billion of private sector funding. Another quarter has 
received follow-on Government funding and not only from DOE but 
DOD. Thirty-six companies have been formed. There are 9 or 10 
products out there already in the marketplace in a program that 
has only been operating essentially 5 years.
    The last round of proposals, the so-called open call in 
2015, was very successful in terms of the projects funded. The 
trouble was it was just barely over 2 percent of the 
applicants. We are leaving a lot of innovation on the table. 
And so with the formation of these clean markets--and again, 
look, one can argue for or against, however you wish, the Paris 
agreement. But the fact is essentially every country in the 
world committed to going towards lower carbon. And that means 
the already growing clean energy marketplace is only going to 
take off even faster. And we should stay at the head of the 
train and continue our innovation tradition and capture the 
benefits of it domestically and globally.
    Ms. Castor. I agree. Thank you.
    Mr. Whitfield [presiding]. The gentlelady's time has 
expired.
    At this time, the Chair recognizes the gentleman from 
Illinois, Mr. Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for your service to your 
country and for being here. I appreciate it.
    I just want to kind of briefly talk about something, and 
then I want to get into LNG a little bit more. Included in the 
budget are plans to finalize DOE's multiyear program plan for 
grid modernization, which will create an integrated R&D program 
that will help ensure the future grid will deliver reliable, 
affordable, secure, resilient, and clean electricity to 
consumers. What specific kind of projects will be undertaken in 
this program do you foresee?
    Mr. Moniz. Well, I should note that a major piece of it--
not all of it--but a major piece of it is also a lab consortium 
that came together to outline a program. There will be 
technology component R&D. We have a lot of stuff still to do. 
We have very large-scale power electronics, for example, 
managing grid flows in a new, smarter way. There will be the 
integration of information technology, particularly on 
distribution systems, including going behind the meter. But 
another kind of effort will be a real focus on doing, partly 
through large-scale modeling and simulation, system designs and 
trying to find the ways of working with that such that it helps 
also the ISOs, the State regulators, et cetera, in terms of 
building that new grid. I might add, if I may, that resilience 
is also critical. And some of the utilities are already making 
tremendous progress.
    Mr. Kinzinger. And then, just very briefly, what is kind of 
your timing to launch and finalize? And then what opportunities 
for State and local municipalities will there be in 
participating? And are there going to be funding opportunities 
that you foresee?
    Mr. Moniz. Well, it is already going. So fiscal year 2016, 
we have launched it. We have asked for a significant increase 
in fiscal year 2017. As I say, we want to, especially on the 
systems side--I mean, as far as the technology goes, those will 
be competitive----
    Mr. Kinzinger. And then what about like local 
municipalities and States to participate?
    Mr. Moniz. So I think, right now, our focus has been more 
at the State level and things like the ISOs who manage, 
obviously, the system. But if there are good ideas as to how we 
can effectively bring in localities, that would be great. 
Frankly, the urban challenge is so great for the economy, for 
the environment, and the integration with things like electric 
vehicles.
    Mr. Kinzinger. All right. Thank you.
    I am going to switch subjects. LNG exports and crude oil 
exports put the U.S. well aligned to help the energy security 
of our allies in Europe and Asia. What steps are being taken to 
increase global access to reliable and affordable energy from 
us? And then also maybe when you are looking into Europe, for 
instance, and, frankly, that Russia has a grip on Eastern 
Europe and Europe, what are we doing to kind of help Europe 
develop their own energy as well as our exports?
    Mr. Moniz. A lot of questions there.
    Mr. Kinzinger. Yes.
    Mr. Moniz. First of all, in terms of LNG exports, as you 
well know, last Wednesday, a week ago today, the first ship 
left the United States. Kind of a major milestone in our gas 
revolution.
    Mr. Kinzinger. Great.
    Mr. Moniz. So, right now, there are several other 
facilities being built. We have licensed for non-free-trade-
agreement countries now 10.8 BCF per day. And we just finished 
the public comment period on the economic analysis of going up 
to 20 BCF per day. So we are now analyzing those comments. So 
that is going forward.
    On the oil side, well, OK, oil exports are now going. And I 
have been consistently saying that at least for the foreseeable 
future this would have a relatively small impact. I see nothing 
so far to change that. It is a question of market structures 
and market prices.
    As far as Europe goes, if I might say, and we would be 
happy to come by and talk about this more, already going back 
to May of 2014, we worked in the G-7 context plus the EU to 
establish kind of a template of what are the new energy 
security principles of the 21st century? We are working with 
them. The European Commission put out an energy security plan 
that very much follows that set of principles. So we continue 
that. There is in the FAST Act a requirement that DOE, working 
with State, come back to the Congress with an energy security 
report. We are working on that. And, specifically, we continue 
our work with Ukraine in terms of helping them with their 
integrated energy planning.
    Mr. Kinzinger. Thank you. I only have 20 seconds, so I 
won't ask my next question, but I will just make the statement 
that it is very appreciated. You know, I see our energy as a 
very important part of our national defense structure, of our 
soft power, which prevents the use of hard power in many cases, 
and a very important part of posturing against the Russians and 
strengthening our NATO allies. So to the extent that you can 
continue to partner with that in development in terms of 
utilizing our blessed resources that we have would be very 
appreciated. So I appreciate you being here again, and thanks 
for your service.
    And I will yield back.
    Mr. Moniz. Thank you.
    Mr. Whitfield. The gentleman yields back.
    And sorry my phone was so loud.
    At this time, I would like to recognize the gentlelady from 
California, Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your testimony and your 
presence here.
    As you well know, climate change is real. The effects are 
real, and the time to act is now. Communities across the 
country and around the world are already facing the 
consequences. And it is going to take great leadership and 
political will to do what is necessary to act decisively to 
change this troubling trajectory.
    This past December, almost all the world's countries came 
together to forge a path forward to respond to this fact. At 
the heart of this need is the requirement that we recognize the 
dangers associated with a business-as-usual approach to our 
energy landscape and embrace and implement the renewable energy 
technologies as quickly and broadly as possible. I was glad you 
spoke to this in your opening remarks.
    This need is twofold. First, we need to rapidly expand on 
the implementation of existing green technologies, such as 
solar power, increased energy efficiency, but we also need to 
invest in developing new technologies that will help us 
transition to renewable energy sources. This is important, of 
course, for the environment, but also it really is a boost to 
our economy with the good-paying jobs that it can create.
    But in order to lead in green tech innovation, we must 
actively support our researchers, scientists, startups, and 
investors. For example, the universities in my district have 
been integrally involved in research into developing green 
technologies. And you mentioned the Energy Frontier Research 
Centers designed by DOE in 2009. And UC Santa Barbara in my 
district was one of the first to apply and receive this boost. 
Since then, the center has made significant advances in key 
energy technologies, like photovoltaics and LEDs. Similarly, 
Cal Poly in San Luis Obispo has recently been awarded a DOE 
grant to conduct research into energy-generating offshore wave 
technology as part of the CalWave project.
    So, Secretary Moniz, Mission Innovation, you have described 
it as a landmark commitment to dramatically accelerate public 
and private global clean energy innovation. Will you just give 
an example or two of how--I know you have already done so, but 
expand on that a bit--how this will help develop technologies 
required to move us toward a greener future? Specifically, I 
think how we can incentivize. To me, it is so much about our 
universities and research institutions.
    Mr. Moniz. Thank you. And maybe I will start by apologizing 
that yesterday we stole from your district Mike Witherell to 
become the director of the Berkeley Laboratories.
    Mrs. Capps. I know you did.
    Mr. Moniz. Mission Innovation, again, obviously, it is 
going to be a very broad approach to energy technologies. But 
some of the high points, I think--well, for one, I have to say 
that I think the regional innovation partnerships are really 
important. They will lead to portfolio diversification and I 
think help build innovation ecosystems more broadly in the 
country.
    If you go to specific areas, one of the focal points is 
certainly on the EFRCs, we want to expand that program. It has 
been a great success. The ARPA-E, here I would note: I 
mentioned early on in the discussion that the budget has a 
fairly modest discretionary increase, 2 percent, although with 
a priority attached to Mission Innovation, but also some 
mandatory requests. I say that now if we turn to ARPA-E, the 
request for ARPA-E is for a 20-percent increase in 
discretionary funding to $350 million. I think the track 
record, I said earlier, more than justifies that. But it also 
suggests $150 million of mandatory so that ARPA-E could also 
take on some different dimensions. In terms of some projects, 
for example, one of the advantages of mandatory funding is that 
it can give more certainty about a long-term commitment. And 
that is something that could be taken in this case. There could 
be scale up to more systems integration of different 
technologies. So I think we have thought this through in ways 
that are complementary. But then, of course, I mean, the 
specific technologies, frankly, across the board, we will look 
to get more innovation. Again, as I said earlier, there is a 
lot of innovation that we are leaving on the table.
    Mrs. Capps. Thank you.
    My second question, Mr. Chairman, was going to be to ask 
you to elaborate even more on ARPA-E, but you have already done 
so. If you want to submit anything more for the record. I am so 
taken by the significance of ARPA-E to our national security. 
The more we become energy independent as a Nation, the better 
it is for the world and, certainly, for our place in the world. 
But thank you again.
    Mr. Moniz. In fact, if I may just add--I am sorry, Mr. 
Chairman, but just add, if you go out to the Gaylord Nelson 
Center and see these technologies--I was there yesterday--and 
you see everything from novel renewables to an incredible small 
compact methane detector that can be used in hydrocarbon 
production and other settings. It is really great stuff.
    Mrs. Capps. Thank you.
    Mr. Whitfield. The gentlelady's time has expired.
    Mrs. Capps. Maybe he is suggesting a field trip for the 
committee.
    Mr. Whitfield. Mrs. Capps, you lead that field trip, and 
maybe we can get it going out there.
    Mr. Moniz. After lunch.
    Mrs. Capps. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much.
    Let me start, Mr. Secretary, in saying you were here a 
previous time and indicated, after hearing a number of us from 
coal country talk about the problems that we were having, that 
your team was willing to work with us. They sat down with us. 
They even come to my district. Very much appreciate it. And we 
have a symposium that we are working on to have some of your 
folks come in and talk to the people who are in the industry in 
the district to figure out where we go in the future. So I 
greatly appreciate that. I appreciate you have already 
commented on my favorite, chemical looping, and other 
technologies that are out there.
    In regard to the R&D, the Mission Innovation initiative 
that was launched by the administration in November to try to 
accomplish global clean energy innovation is working with a 
number of countries, China, South Korea, India, Indonesia, and 
Germany, who also recognize that coal is an important part of 
their electric generation into the future, and they share our 
northern hemisphere air with us. And I am just wondering what 
we can do because they are looking at coal long term. How do 
you intend to work within the initiative to develop cleaner 
coal technologies domestically so that then we can support 
international efforts to do the same? Be brief, because I got 
lots of questions.
    Mr. Moniz. First of all, Congressman, I want to thank you 
for hosting our people to go to your district and following 
through on that. That is the way we like to work with the 
Members whenever possible.
    Mr. Griffith. Thank you. You are one of the few who has 
followed through when they have said something in the committee 
about helping or at least looking at the problem.
    Mr. Moniz. We try.
    Mr. Griffith. Look, I recognize that and commend you for it 
and appreciate it.
    Mr. Moniz. Thank you.
    In terms of developing the coal technologies, again, I do 
want to emphasize something that we have said before, that in 
the budget there are many, many different ways--it is not just 
the fossil energy R&D program. But in the fossil energy R&D 
program, we have, I think, basically streamlined in terms of 
the very large CCUS demos and now, in 2017, focused on 
developing these more advanced technologies, which could be big 
breakthroughs. So that is number one.
    But we have things in science. We have things in ARPA-E. 
And we have things, like incentives, like the $5 billion tax 
incentive that is being proposed for carbon capture and 
sequestration.
    Mr. Griffith. I do appreciate that, and I will come back to 
that in a minute.
    I am also concerned, Gina McCarthy, the Administrator of 
the EPA, has said that she is still going to move forward with 
expending taxpayer resources, despite the Supreme Court's 
recent ruling staying implementation of the Clean Power Plan. 
Is DOE following the letter and spirit of the stay request and 
stopping any coordination on the State level when it comes to 
compliance with the Clean Power Plan?
    Mr. Moniz. Well, again, of course, again, as we said 
earlier, the Supreme Court action was a stay; it was not a 
judgment. We have ongoing work with States. It is longstanding. 
We give grants to States, the State energy offices. We do 
technical assistance to State energy offices. We established a 
program with labor unions to provide them technical assistance 
in terms of how State implementation plans could maximize job 
creation, something that, again, could be of interest to you. 
So we continue those kinds of activities.
    Mr. Griffith. I appreciate that. Can you tell me how many 
carbon capture and storage commercial-scale power projects are 
up and running today?
    Mr. Moniz. Up and running? Well, there is Boundary Dam in 
Canada. There are a variety of industrial facilities that have 
CCUS here and globally. There is one operating in the United 
States; one about to operate; and Petra Nova in probably less 
than a year, as a coal powerplant in Texas with enhanced oil 
recovery.
    Mr. Griffith. All right. Because talking about Boundary 
Dam, my understanding is that the project----
    Mr. Moniz. I should have said Kemper is coming as well.
    Mr. Griffith. OK. But my understanding is Boundary Dam is 
currently the only operating post-combustion capture system in 
the world. And the EPA relied on that to make its determination 
that CCS is adequately demonstrated for commercial power 
production. But I am reading all these articles that say they 
are only hitting about 40 percent of where they thought they 
would be. I am just wondering if you can say, is that accurate 
to your understanding? Are they doing better than hitting about 
40 percent of what they projected?
    Mr. Moniz. I think, frankly, it is not different from many 
other of these technologies where we are pushing forward where 
it takes engineering know-how. I mean, forget carbon capture--
when the first integrated gasification coal plant started 
operating in Florida, for example, and the same experience was 
in other--in Spain and elsewhere, that IGCC plant, it took 3 
years to reach its operating because you are learning, you are 
breaking it in. And so I think this is nothing unusual.
    Mr. Griffith. I think----
    Mr. Moniz. The same is true, by the way, for CSP plants.
    Mr. Griffith. I would just say that, while you would expect 
some, 40 percent seems awfully low. And I think it may take 
them a little bit longer than 3 years.
    Mr. Moniz. I could come and show you the IGCC histories, no 
carbon capture, just IGCC, and you will see maybe it is on 
track.
    Mr. Whitfield. The gentleman's time has expired.
    At this time, the Chair recognizes the gentleman from 
Maryland, Mr. Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Mr. Secretary, I can't tell you how much confidence you 
give me in the Department of Energy's role in the environment 
portfolio, all of these innovations. And I think your positive 
impact in so many ways around the country is probably unrivaled 
in terms of someone serving in your capacity. So I want to 
thank you for that. I just get excited listening to all the 
things that you are working on and proposing, because I do 
think it puts----
    Mr. Moniz. It is a great department.
    Mr. Sarbanes. You are on the cutting edge. I think you are 
having a field day. So I did want to talk about I noticed in 
the budget that you proposed consolidating the Department's 
efforts in a new Office of Energy Jobs Development. I wanted to 
speak about that for a moment. And that office is going to do a 
number of things: manage the collection of energy jobs data, 
which is critical, and then issue an annual report on our 
progress there; coordinate the ongoing energy workforce 
development activities across the Department and in this 
amazing network of National Labs that you alluded to; and, 
thirdly, provide technical advice and support to States and 
localities to advance energy workforce training and economic 
development.
    And we have already seen examples of that in Baltimore. And 
I want to support the DOE's investment in these sorts of 
activities. In particular, the clean energy sector has 
tremendous potential, as you know, to be the next big growth 
industry that can spur the economy. We have an amazing 
partnership that has come together in Baltimore recently that 
has begun to be developed between the Department of Energy, 
that is providing its expertise and technical assistance, the 
City of Baltimore, the Maryland Clean Energy Center, and a 
variety of nonprofits to create a sustainable low-income solar 
installation workforce training initiative, which would 
accelerate home weatherization, the deployment of solar energy, 
with a focus on low-income housing in the City of Baltimore, 
train underemployed or unemployed community members to step up 
into these job opportunities as part of an energy industry 
workforce, and then secure full-time employment for trainees 
within the growing energy industry in Maryland. In that sense, 
this project or initiative really models the kinds of things 
that you are already doing across the country and can increase 
efforts around the country in a like manner.
    So can you just give me some of your thoughts? Because, 
obviously, the Department views this as a priority and just a 
basic economic development initiative, particularly one that 
can focus on some hard-hit and neglected economic areas around 
the country. It offers great promise.
    Mr. Moniz. Well, thank you, Congressman. And also thank you 
for your personal engagement in the Baltimore solar initiative. 
Also, Congressman Cummings and Senator Cardin, as well. But you 
have been particularly deeply engaged, which we appreciate. So 
the Baltimore initiative was, I think, as you say, a good 
model. We are working with the local institutions, Morgan State 
University being just one of them. And the idea is here, for 
the members, is to try to integrate solar deployment with the 
weatherization of homes for higher efficiency in low-income 
areas. And, obviously, Baltimore has had its challenges over 
the last year.
    So I would like to use that to go to your opening statement 
about establishing the Energy Jobs Development Office. About 2 
years ago, we brought in I think two outstanding individuals. 
And they were prime movers for the Baltimore thing. But they 
have done a terrific job on jobs broadly. You mentioned data. 
It is very hard to get data on what energy jobs are. So we have 
been working with the Department of Labor to do this, as you 
say, in an annual report. And that is a foundation for 
understanding not only what is happening, but what can we do to 
make it better? So that is just one example. So I do ask the 
Congress to allow us to have a separate budget line, rather 
than passing a tin cup around, to have this jobs focus. I just 
mention, the last thing I will say is, again, you have raised 
it, is in this case of the solar, it would be great to link 
that then to training local citizens to do things like solar 
installation. In November, this country passed 208,000 direct 
jobs in solar alone. And on the installation side, you are 
certainly talking north of $20 an hour for an installer. Get 
some training. We will do a community college program to do 
that. I think this is what we have to do in more urban areas.
    Mr. Sarbanes. Thanks very much. We look forward to working 
with you.
    Mr. Whitfield. The gentleman yields back.
    At this time, the Chair recognizes the gentleman from Ohio, 
Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And, Mr. Secretary, it is good to see you again. Before I 
get into my questions, I would like to engage in a topic that 
you and I have had a conversation about many times before. And 
I would be remiss if I didn't highlight my disappointment with 
your Department's recent decision to withdraw support for the 
American Centrifuge Project down in Piketon, Ohio. I think this 
is a very seriously flawed decision. I believe that by allowing 
the ACP to shutter operations, we are essentially seriously 
further hindering our ability to readily provide domestically 
enriched uranium for national security purposes.
    And one of my biggest concerns is the contradictory nature 
of the decision in light of the very report that your 
Department produced upon which the decision was made, because 
one of the viable options in that report that was discounted 
was discounted because of the loss of the workforce from a 
previous facility. And I worry about how this loss of this 
uniquely skilled workforce is going to play out over time, and 
how that could be detrimental when DOE eventually decides, once 
again, that we need to build out our domestic uranium 
enrichment capability. That workforce is not going to sit there 
and wait. Those people have got to find jobs somewhere, and 
they are not going to be sitting idly by.
    So I just wanted to reiterate one more time, Mr. Secretary, 
that I believe that is a very flawed decision. And I hope you 
will take that under consideration. And if there is any way to 
reverse it, you certainly have my support, and I believe many 
of my colleagues as well.
    Mr. Moniz. Should I comment?
    Mr. Johnson. Certainly.
    Mr. Moniz. I won't go through the entire decision process, 
but just to note that, first of all, the program continues. 
Unfortunately, for the Portsmouth side--and it is not nice, I 
am not happy about it--but the spinning of the existing old 
centrifuges has stopped. But key skills will be sustained. But 
the real issue is that we do need--I have been totally 
consistent and agree with you--at some point for sure we need a 
national security enrichment train. And, right now, the ACP is 
the only candidate at the moment for sure. And the Portsmouth 
facility remains uniquely suited and designed to house that 
national security train. The thing is it costs billions of 
dollars, which have not been made available at the moment. And 
with the long----
    Mr. Johnson. If I could interrupt you, Mr. Secretary, they 
have been made available, because Congress continues to fund 
that project. How can you say they are not available?
    Mr. Moniz. Billions of dollars to build a new national 
security train. That is the issue.
    Mr. Johnson. Well, I don't think I grasp that.
    Mr. Moniz. I would be happy to get together with you and do 
it again.
    Mr. Johnson. We will take that offline, because that is a 
new one that I am not familiar with. Because the cascade is 
there now. And the cost to change that cascade to an 
operational one seems to me would be a lot cheaper than 
starting from scratch.
    Mr. Moniz. No, but the problem is that--well, again, we 
should maybe go offline. But that cascade will not be part of a 
national security train. We can discuss that.
    Mr. Johnson. OK. Let's talk about it. Now, another USEC-
related question, you said that Congress gave DOE authority in 
2000 to use the USEC funds, which is the American Centrifuge 
Project, for the D&D cleanup. But from 2000 through 2015 or 
2016, that was never proposed. Why now would the budget propose 
using the D&D--or the USEC funds to fund the D&D? Just a 
clarification.
    Mr. Moniz. There were proposals in 2000 to use the USEC 
fund. They, in the end, were not approved to use the fund. And 
in the intervening period, of course, the utilities then 
stopped paying into the UE D&D fund. Congress has essentially 
chosen to appropriate out of discretionary funds. We are 
suggesting that it is time, when we have $5 billion in three 
funds, we think it is time to go back and to think about what 
might be, frankly, also a kind of a stable way potentially of 
addressing this. One of the differences to when the utility 
payments were ceased upon agreement was that the full cost of 
the D&D was not known. Now we see about a $22 billion to go on 
UE D&D. So it is a big number. And there is about $5 billion in 
those three uranium funds today in the Treasury. And by the 
way, one of the ironies, we would say, is that interest is 
charged. So they sit in the Treasury. Interest is charged. The 
amounts keep growing. We are just proposing maybe it is time to 
start using those.
    Mr. Johnson. OK. We will talk offline. Thank you.
    Mr. Whitfield. The gentleman's time has expired.
    At this time, the Chair recognizes the gentleman from 
Pennsylvania, Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    And I want to thank my two colleagues for their courtesy in 
letting me speak today.
    Secretary Moniz, thank you for being here. It is always a 
pleasure to have you here in front of our committee. And I want 
you to know how much I appreciated your visit last year to 
Pittsburgh. And you didn't get a chance to tour the NETL, so I 
want to invite you to come back as soon as possible so that you 
and I can visit the NETL in Pittsburgh and the incredible 
workforce that is down there.
    Let me ask you a question. This is the first DOE budget to 
distinguish or delineate between the NETL's infrastructure 
program versus the research and operations program. Can you 
explain this distinction in a little greater detail and the 
reason why you have decided to structure the budget this way?
    Mr. Moniz. Well, one of the principal reasons is that the 
outstanding relatively new director of NETL urged us to do it 
this way. And I think she is right. Previously, the budget was 
kind of--it was hard to figure out what it was. A piece of it 
was in the CCS line. A piece of it was in program 
administration. And now I think this gives greater transparency 
because, of course, as you well know, NETL has got two very 
different functions: one is the R&D, and one largely is kind of 
a contract manager, not only for FE but for other programs as 
well. This gives kind of identity to the research program. And 
we remain very interested in strengthening it. In fact, there 
is an increase this year particularly to, finally, I think, 
address the supercomputer needs at NETL.
    Mr. Doyle. So, as far as the impacts on the workforce and 
the organizational structure at NETL, you are saying this just 
helps distinguish funding lines for program management versus 
R&D?
    Mr. Moniz. Yes. Correct. And, in fact, there has been an 
increase in the R&D.
    Mr. Doyle. I certainly support increased funding for the 
NETL that is featured in the budget. But I am a little 
concerned that the request seems to represent an overall 
decrease in funding for fossil energy R&D and so, specifically, 
a significant decrease in funding for CCS and advanced power 
systems at NETL. Can you explain a little bit the reasoning for 
this decrease?
    Mr. Moniz. See, part of that is the--we can call it 
restructuring, but it is the, frankly, the termination of some 
of the large demonstration projects that could not reach 
financial close. And so those funds have been redirected to 
supporting now what I would call more R&D as opposed to the 
demonstration projects. So that is where the pilot projects, 
for example, for chemical looping, which NETL is actually 
working on right now--they have a smallish facility--and 
oxycombustion and the like, so I think this actually 
strengthens what I would call more of the basic R&D program.
    Mr. Doyle. So, also, in the budget, you are basically 
adding natural gas carbon capture under the carbon capture 
heading that was previously reserved for coal-related research.
    Mr. Moniz. Right.
    Mr. Doyle. Could you just expand a little bit on your 
thought process for that?
    Mr. Moniz. Well, so that is a relatively small amount of 
funding--I forget the exact number, maybe $15-million-
something--to go into the design of what could then be a 
natural gas carbon capture demonstration of some undetermined 
scale at the moment.
    Because the reasoning is quite simple. Clearly, carbon 
capture with coal, whether it is direct as we are now doing or 
some of the new approaches, is important. But, also, with 
natural gas. We have a long view in terms of our technology 
development. And, right now, gas, one can argue, has been 
contributing to lower carbon emissions, but if we are going to 
practically decarbonize the electricity sector, ultimately 
natural gas would have to have carbon capture as well.
    So this is the early stages of design.
    Mr. Doyle. Yes.
    And, finally, I was pleased to see the administration's 
initiative to increase investment and research dollars in clean 
transportation systems. Can you explain how, under the 21st 
Century Clean Transportation Plan, stakeholders like our 
universities or companies in the area can work with the 
administration?
    Mr. Moniz. Oh, I think there would be substantial calls for 
proposals to do that. The proposal in that plan is for $500 
million additional in transportation. So it would be very, very 
broad-based. And that is quite separate from the 
infrastructure, the fuels infrastructure issues. It is really 
R&D on those areas. So, certainly, if I am issuing that, there 
will be plenty of chances for the universities to----
    Mr. Doyle. Great. Thank you. And let's get a date to go 
down to NETL in Pittsburgh.
    Mr. Moniz. You got it.
    Mr. Doyle. Thank you.
    Mr. Chairman, thank you very much.
    Mr. Whitfield. Thank you.
    The gentleman yields back.
    At this time, I recognize the gentleman from Missouri, Mr. 
Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And thank you, Secretary Moniz. It is always a pleasure to 
see you here and hear from you. You kind of brighten my day 
when you come in and talk to us, so thank you.
    One of the----
    Mr. Moniz. Uh-uh.
    Mr. Long [continuing]. New projects announced at the Paris 
climate conference is the Mission Innovation program. Now, I am 
taking my family down to Disney World later this month, and if 
I saw a ride there, Mission Innovation, it would not surprise 
me because that sounds like something you would ride at Disney 
World. But this involves the U.S. and 19 other countries. A key 
component of the program is the Breakthrough Energy Coalition, 
which is a group of international private capital investors.
    Could you expand on how this investment coalition is 
comprised and what the level of involvement is or cooperation 
between the Department of Energy and this breakthrough group?
    Mr. Moniz. Certainly. The 2 initiatives or coalitions, if 
you like, the 20 countries and the 28 investors from 10 
countries, they are independent. Now, there is communication. 
So they were formed in parallel, and the idea was, because they 
have the opportunity to feed off of each other, we increased 
the innovation pipeline, that gives more investment 
opportunities, and these investors declare, ``Well, yes, if you 
guys give us more opportunities, we are going to be there with 
billions of dollars to come and invest.''
    But I want to emphasize that, whatever information is 
generated, for example, it is possible that--we have talked 
about but have not yet nailed down--around June, early June, we 
should have this kind of more nailed down, the relationship. We 
may do some joint technology roadmaps, like what is the pathway 
to sunlight to fuels as a kind of a possible transformative 
thing.
    But if done--after all, we are a Government agency--such 
information would not be proprietary to those investors. That 
would be open to everybody to see the benefits of.
    Mr. Long. That was part of my next question, is do you have 
any concerns that these private investors are gaining an 
advantage or an upper hand through special treatment from the 
Department of Energy's clean energy program.
    Mr. Moniz. Oh, well, that is what I just addressed. No. So 
we have to make it sure that it is great but they don't have 
special access to information or to lab technologies, et 
cetera. We have to make this transparent. And we have done 
this, by the way----
    Mr. Long. So at what point is this available to the public, 
I mean, these findings or whatever you want to call it?
    Mr. Moniz. Whenever they are done. I mean, like, if it is a 
technology roadmap, when we have it----
    Mr. Long. So they are going to be private investors working 
with the Department of Energy to come up----
    Mr. Moniz. It could be, and with some others, talking 
about--so the idea is----
    Mr. Long. So you wouldn't feel that it would give them an 
advantage?
    Mr. Moniz. Well, the information would then have to be 
available to everyone as a public DOE report. And, no, so we 
are very sensitive to that, that----
    Mr. Long. So that is a no, I take it. You don't think that 
it would give them an advantage.
    I am just thinking that if they are involved from day one 
and the way things develop----
    Mr. Moniz. The only advantage would be--but it would not be 
exclusive to them--would be to have thought about this 
particular technology area. But others are thinking about it. 
In fact, the one I mentioned, we already have a hub doing it, 
with all the results published.
    Mr. Long. OK.
    Mr. Moniz. Yes.
    Mr. Long. You mention in your testimony that the budget 
request takes steps to implement recommendations from the first 
installment of the 2015 Quadrennial Energy Review.
    Which recommendations are you referring to in your report 
there? And what is the timeframe for implementing the 
recommendations from the QER?
    Mr. Moniz. For that, I should probably find my notes, 
because it is quite a long list in the FAST Act.
    There are issues of our being charged to do an energy 
security plan, for example, with State. There are issues about 
doing a study to bring to the Congress on the establishment of 
an electric power transformer reserve, for example. There is a 
really long list of issues, and we are working on all of them.
    Mr. Long. OK. Could you maybe summarize that or get me, 
like, bullet----
    Mr. Moniz. Sure.
    Mr. Long [continuing]. Points or something to give that to 
my staff? Because I do have----
    Mr. Moniz. If I can find it in my papers, I can give it to 
you now, actually.
    Mr. Long. OK.
    Mr. Moniz. OK. Anyway, we will certainly get that to you.
    Mr. Long. We have 8 seconds till liftoff, so we had 
better--if you can get it to me later, I would appreciate it.
    And, like I said, it is a pleasure to have you in here. 
Thank you for being here.
    And I yield back, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back his 1 second.
    At this time, I recognize the gentleman from Kentucky, Mr. 
Yarmuth, for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Mr. Secretary, nice to see you here. Thank you for your 
responses and your presentation.
    I want to congratulate the committee chair, my colleague 
from Kentucky, Mr. Whitfield, for holding this hearing and for 
allowing you to present the concepts and the priorities of the 
Department of Energy.
    And I cannot resist taking the opportunity to say that, as 
a member of the Budget Committee, I was astonished that the 
chairman of the Budget Committee, for the first time in 40 
years, did not allow the Director of the Office of Management 
and Budget to come to the Hill and present the administration's 
overall budget.
    And I think the usefulness of a hearing like this, in which 
we really do get into the plans and priorities of the 
Department, is something that could benefit the American people 
and the Congress, as well, if we were able to discuss the 
President's overall budget. So I wish that Chairman Price of 
the Budget Committee would reconsider that and allow such a 
presentation. And I will tell him how much I appreciated this 
hearing.
    One of the things that I think about a lot, Mr. Secretary, 
is that, at its optimum efficiency, Congress moves at 10 miles 
an hour, and we have a world that is moving at 100 miles an 
hour, and how are we able to make long-term policy that 
actually makes sense when things are changing so rapidly?
    And I think about, for instance, driverless cars and the 
work that Government is going to have to do very quickly to 
figure out how to accommodate that. So I can't imagine a field 
that this is more appropriate to discuss within than the energy 
field. And I know so many things have been happening and are 
happening.
    So I guess a broad question is, can you think of areas in 
which Congress really needs to start thinking about policy for 
things that are about to happen that we are totally unprepared 
for?
    Mr. Moniz. It is always hard to predict what you are 
unprepared for, but I certainly agree with you. Your clock 
speed statement is very apt, and the driverless cars are a 
terrific example. I think 2 years ago very few would have seen 
this coming at us so fast. And it raises huge numbers of policy 
issues, obviously, with liabilities and all kinds of issues.
    So I would just say there are two areas where I think--and 
they are actually in some sense linked--where I see enormous 
change happening, the kind of change that we didn't anticipate 
with the oil and gas revolution, say, 15 years ago.
    One is that, if you look at the entire electricity system--
and, by the way, the second installment of our Quadrennial 
Energy Review--the first one was on infrastructure across the 
board. This one is on the electricity system end-to-end. And 
there are so many moving parts--on the high-voltage grid, on 
the distribution system, the integration of IT, energy storage 
suddenly coming to maturity in terms of costs.
    So there are the technology issues, but then how do we 
value the services; how do we value fuel diversity; how do we 
value storage in the system; how do we value when we have 
distributed generation and what it is doing not only in terms 
of supplying energy but in terms of, potentially, stability in 
the system, voltage stability, you know, you name it; how do we 
go, in this example, behind the meter into the consumer's place 
in terms of new services.
    As we do that and as we get more and more successful, or 
continuing our success, in terms of decreasing energy 
intensity, energy efficiency, et cetera, business models of 
utilities have to change. It is not going to be the same 
system.
    What does that mean for our regulatory system? I don't want 
to open Pandora's box. But, you know, we have a historical 
system built around States, and we have to work with it, but 
recognizing that it does not match the physical realities of 
the system as it emerges. So that is a big one to think 
through, that whole kind of system.
    Another one is, I think--and it is not unconnected--is the 
urban environment and potential transformation there, I mean 
energy-linked. Your driverless cars, for example, can be a big 
piece of that, right? A whole different ownership model, a 
whole different--the model is different.
    And, furthermore, if you speculate--and now I am going off 
into the wild blue yonder. But if you speculate about a city 
that has become practically all electric and quiet and clean, 
well, maybe you build your buildings in different ways.
    So I think those are two big issues where there are so many 
threads to pull together.
    Mr. Yarmuth. OK. I appreciate that answer very much. Thank 
you.
    I yield back, Mr. Chairman.
    Mr. Whitfield. At this time, the Chair recognizes the 
gentleman from Oklahoma, Mr. Mullin, for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman.
    And thank you for being here again. I know we have spoken 
on several different occasions.
    And, you know, you come today asking for a significant 
increase at a time when we are still running deficits across 
the country. Can you just give me your number-one priority, 
what you would use the money for?
    Mr. Moniz. Well, the first point I would make is that, 
again, our discretionary request----
    Mr. Mullin. No. The number-one thing, what are you looking 
for, the number-one----
    Mr. Moniz. I want to make the point, it is 2 percent, and 
the President's budget is within the cap.
    Now, in terms of this budget and the number-one issue in 
terms of new direction is the Mission Innovation direction writ 
large----
    Mr. Mullin. Is that across the board, or is that just with 
renewables?
    Mr. Moniz. It is across the board.
    Mr. Mullin. Because the policy in the past that your 
administration has put forth, and your agency, isn't across the 
board. It is not equally yoked. It seems to have a tendency to 
lean towards renewables.
    And with that being said, I have another question for you. 
DOE is charged with setting effective and comprehensive 
national energy policy. Is that correct?
    Mr. Moniz. Sort of.
    Mr. Mullin. Sort of?
    Mr. Moniz. Well, only because----
    Mr. Mullin. I mean, I thought that was the reason why it 
was in existence to begin with.
    Mr. Moniz. No, no, no, the Energy Department, of course, 
has the major----
    Mr. Mullin. Well, it is not ``sort of.'' It is either 
``yes'' or ``no.''
    Mr. Moniz [continuing]. Makes energy technology 
development. But my point simply is, as was evident in the 
Quadrennial Energy Review, energy is----
    Mr. Mullin. No, I am talking--I don't care about the energy 
review. I am talking about DOE is charged with setting 
effective and comprehensive national energy policy. Is that a 
yes or a no?
    Mr. Moniz. Energy touches many equities----
    Mr. Mullin. It is just a simple ``yes'' or ``no.''
    Mr. Moniz. I am trying to answer the question.
    Mr. Mullin. I don't need an explanation. I just need a 
``yes'' or ``no.''
    Mr. Moniz. Because the answer is, then if you take 
something like the Quadrennial Energy Review----
    Mr. Mullin. Just a ``yes'' or ``no,'' sir.
    Mr. Moniz [continuing]. That is bringing together----
    Mr. Mullin. I am not asking for a long answer. I just want 
a ``yes'' or ``no.''
    Mr. Moniz. I am giving you the shortest answer that is 
meaningful.
    Mr. Mullin. The shortest one would be ``yes'' or ``no.'' It 
is either a three-letter word or a two-letter word.
    Mr. Moniz. We play a central role in pulling----
    Mr. Mullin. Now, sir, I just want a simple ``yes'' or 
``no.''
    Mr. Moniz [continuing]. Together the energy threads for a 
coherent energy policy.
    Mr. Mullin. So is that a----
    Mr. Moniz. Yes.
    Mr. Mullin [continuing]. ``Yes''? Why didn't you just say 
that to begin with?
    Mr. Moniz. Because it needed a little bit of----
    Mr. Mullin. No, it didn't need anything else. All I needed 
was a ``yes'' or ``no.''
    So is part of that about the affordable and reliability of 
our energy policy?
    Mr. Moniz. Say it again. I am sorry.
    Mr. Mullin. Is part of that policy about the affordable and 
the reliability to our taxpayers, to the American people?
    Mr. Moniz. Absolutely.
    Mr. Mullin. Then why are we allowing----
    Mr. Moniz. And security and environment.
    Mr. Mullin. Then why are we allowing the EPA to set agenda 
for DOE?
    Mr. Moniz. Those are environmental rules about air quality.
    Mr. Mullin. Clean Power Plan? Is that not going to affect 
affordable and reliability issues?
    Mr. Moniz. This goes back to the earlier answer, why it is 
more complicated than ``yes'' or ``no.''
    Mr. Mullin. No, it is not. What we are doing is you are 
allowing agencies to----
    Mr. Moniz. Environmental policy has historically always 
affected energy policy, as has, often, security policy and----
    Mr. Mullin. We all want to be good stewards, but what I 
have an issue with is when the EPA becomes able to set policy 
for the DOE and when DOE becomes a source of agenda-driven 
issues rather than really focusing on making sure that we have 
reliable and effective, efficient energy sources to the 
American people. And when we start looking at only one factor, 
such as green renewables, which is an agenda-driven policy, and 
we take a look away from what has driven this economy and our 
energy resilience, I have an issue with that.
    And we want the Department of Energy to be successful 
because we want America to be successful, but we don't want it 
to be agenda-driven. And we are allowing the EPA step all over 
your agenda or your policies by setting policies through the 
Clean Power--and I don't see any pushback from you or your 
agency saying, ``Wait, this is part of ours too. You are 
affecting us.'' Instead, you are just going along to get along.
    That is from my perspective. Now, if you can tell me 
something different, please let me know.
    Mr. Moniz. OK. So the EPA is putting out a clean air 
regulation. Our job in the energy sector, as it is in any 
sector that influences air quality, is to develop the ways to 
respond to what the regulations, the laws of the land are.
    Mr. Mullin. What if it affects the reliability of it?
    Mr. Moniz. Sorry?
    Mr. Mullin. What if it affects the reliability?
    I don't know who you keep looking to over there, but you 
and I are the ones talking here.
    So what if it affects the reliability of it?
    Mr. Moniz. The reliability is clearly an issue. Some of our 
analyses----
    Mr. Mullin. Do you not see the Clean Power Plan being a 
reliability issue if it goes into full effect?
    Mr. Moniz. Well, for example, we did an analysis around the 
natural gas system, and we found that there were not 
reliability risks.
    Mr. Mullin. That is very hard to believe.
    Mr. Moniz. We can show you the analysis.
    Mr. Mullin. I appreciate it.
    I yield back.
    Mr. Moniz. It is published.
    Mr. Whitfield. At this time, the Chair recognizes the 
gentleman from Vermont, Mr. Welch, for 5 minutes.
    Mr. Welch. Thank you very much.
    You know, taking up on Mr. Mullin's questions, there is 
required to be a change in the model if we are going to change 
our energy mix, if we are going to move to distributed 
generation. And those are extraordinary challenges that our 
utilities face.
    But that is an agenda that we have in Vermont. You know, we 
have utilities that are all in on trying to promote distributed 
generation, that are promoting solar, that are really strong on 
efficiency. And it is a complete departure from the old model 
that used to exist in the Vermont utilities of just promoting 
more usage of energy.
    And my question--one, I want to cite that. And, two, I 
notice in your budget there is a lot of emphasis on trying to 
facilitate activities such as distributed generation, renewable 
battery storage, and so on, and just give you a quick minute to 
comment on that.
    Mr. Moniz. I would say yes.
    Mr. Welch. All right.
    You know, the second thing, Mr. McKinley was asking about 
coal country and inviting you to West Virginia. I want to thank 
you for coming to Vermont. It was a very meaningful visit. Go 
to West Virginia. I went there with Mr. McKinley. He took me 
into a coal mine. And I want to focus attention on the parts of 
your budget that are going to help coal country out. Because 
whatever one thinks about coal, those coal workers have kept 
the lights on in this country for generations.
    And I want to just give you an opportunity to comment on 
the President's proposal with respect to money that can help 
the Appalachian fund. And a billion dollars is being proposed 
to come from the abandoned mine fund to help out in coal 
country.
    Mr. Moniz. Right. So, again, without repeating it, I just 
again want to emphasize that there are a huge number of pieces 
that affect coal in our budget, not just the fossil energy R&D 
budget.
    Among those, again, I will mention something that I think 
will be very important to put in are the tax credits that I 
mentioned earlier, but, very importantly, the Power Plus Plan, 
which is precisely the plan--it is administration-wide, it is 
not DOE, administration-wide, in terms of really helping 
communities in multiple ways, including what we can help with 
in terms of economic development but certainly retraining and 
other programs, of course weatherization, et cetera.
    This is part of why we have two offices that are critical 
here. One is the ED office, the economic development and 
diversity office, and then this jobs focus, this Jobs Strategy 
Council I formed. They have been in coal country. Well, they 
have visited Mr. Griffith, for example, and I think it was a--I 
heard from them, as well, that it was a very good visit. And we 
are trying very hard----
    Mr. Welch. I would encourage you to keep doing that because 
that is the one area where----
    Mr. Moniz. Yes. Yes.
    Mr. Welch. And these coal workers are----
    Mr. Moniz. Yes.
    Mr. Welch [continuing]. Wonderful people, and they----
    Mr. Moniz. Yes.
    Mr. Welch [continuing]. Are getting hammered, and we have 
to help them.
    Mr. Moniz. We completely agree. And, again, I would urge 
that the Congress look favorably, I hope, on our trying to 
convert that into a separate budget line, a little office. 
Frankly----
    Mr. Welch. Well, I would be glad to work with you and 
colleagues on doing that.
    Mr. Moniz. And that goes back to what Mr. Rush said 
earlier.
    Mr. Welch. Yes.
    Mr. Moniz. Because I think, if we do that, we have a better 
chance of trying to kind of get that planted in the Department 
of Energy as a function that will go on in the next 
administration.
    Mr. Welch. Well, thank you.
    I have 1 more minute. We have a plant, a nuclear plant, 
that is being decommissioned, and we are just stuck with the 
nuclear waste that is in dry-cask storage along the banks of 
the Connecticut River. It is really a problem. It is a problem 
for us. We are going to live with this for how long, we don't 
know.
    Yucca Mountain, none of us are particularly optimistic 
about its prospects. We have a bill in Congress, a bipartisan 
bill, where Texas wants to have an interim storage site. 
Vermont would be glad to provide some stuff to store. The 
administration's blue ribbon commission seems to be open to 
that.
    I know this is a difficult, delicate issue for you, but 
what about the prospects of having some interim storage site 
while whatever is going to happen with Yucca works itself out 
so that we don't have this waste literally right along the 
banks of the Connecticut River?
    Mr. Moniz. We have a request for information out right now 
to the public, following through on the consent-based approach 
to storage--pilot interim storage, big interim storage, and 
geological repositories for both civilian spent fuel and high-
level waste.
    We are moving forward, to the extent that we can, in 
getting the interim storage advanced. We cannot without 
congressional authorization actually do a site.
    But the issue that has arisen with Texas about the 
possibility of a private site is one that we would support the 
Congress providing clarity on that as being an acceptable path 
forward because, ultimately, presumably, to work, that may at 
least require access to the Nuclear Waste Fund, and it would 
certainly require legislative action.
    Mr. Welch. Thank you very much, Secretary Moniz.
    And my time is up, and I yield back. Thank you.
    Mr. Whitfield. The gentleman's time has expired.
    At this time, I recognize the gentleman from North 
Carolina, Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here with us today.
    The original Advanced Research Projects Agency within DOE 
has been in existence for a few years now. Part of the mission 
of the program is to, quote, ``accelerate transformational 
energy technologies from concept to market,'' end quote.
    Has anything come to market yet since the program's 
inception 6 years ago? For example, has there been any wide-
scale deployment of commercialized product that has resulted 
from the ARPA-E program?
    Mr. Moniz. Yes, sir. And, you know, this is a pretty short 
time for this kind of business, and already there are 36 
companies and, I don't know, 9 or 10 commercial products being 
sold. And they span quite a diversity of technologies.
    Mr. Hudson. Well, that is encouraging to hear.
    What metrics does DOE use to evaluate the success of these 
projects?
    Mr. Moniz. Well, I would like to talk about intermediate 
metrics and then the ultimate metrics.
    The ultimate metrics are that these technologies have 
indeed--that some number of them have indeed gone into the 
marketplace and have scaled some appreciable time. In the 
energy business, that is not a 5-year business.
    But the intermediate metrics, I would say, are very 
positive. I mentioned already the 36 companies and 9 or 10 
products, but, in addition, about a quarter of all of the 
projects that have been completed have attracted well over a 
billion dollars of private-sector funding. Another quarter of 
the projects, roughly, has attracted follow-on interest from 
the Department of Energy or other Government agencies, like 
DOD, for example.
    So when you take a program that is, by its nature, kind of 
pushing on the edge of the technology and roughly half of them 
after a 3-year project have got follow-on, including company 
creation, that is pretty good. If anything, it makes you worry, 
are we taking enough risk?
    Mr. Hudson. Well, when an ARPA-E funded project isn't 
resulting in progress or benefits, are there any protocols in 
place for ending that project?
    Mr. Moniz. Oh, yes. ARPA-E is a very different, by 
creation, a different structure. And you have active program 
managers who are very much close to the project--which is also, 
by the way, also receiving advice on tech to market. But if 
they are not working, then they just end. In fact, it has been 
said that, you know, in this kind of business, what you like is 
quick failure and long success.
    Mr. Hudson. Switching gears a little bit, you mentioned the 
first Quadrennial Energy Review. Can you tell me how much that 
first review cost?
    Mr. Moniz. To be honest, I don't have a precise number, but 
I would say a few million dollars out of our Energy Policy and 
Systems Analysis Office. Some of the work was done analytically 
in house, and then some of it was, you know, specific studies 
contracted outside.
    Mr. Hudson. Well, if you could get back to me with maybe 
more----
    Mr. Moniz. OK, we will try to--I am not sure we have 
actually kept a budget number in that way, but we will make an 
attempt at it.
    Mr. Hudson. OK. I appreciate that.
    But assuming the costs are generally what you are saying, 
would you say it has been valuable based on that cost?
    Mr. Moniz. Extremely. I think it has been a tremendous 
return. The action of this committee and this Congress in 
incorporating a tremendous number of the recommendations into 
legislation has been important. It has also being actively used 
in the current Senate legislation being developed right now. 
And, in addition, it has influenced significantly State energy 
offices. We have had many interactions.
    So we think this has been a great success, I think, 
verifying the idea that doing a deep, analytically driven 
document can really provide an excellent basis for discussions 
with the Congress and others.
    Mr. Hudson. OK.
    And you have said the second installment of QER will 
conduct a competence review of the Nation's electricity system. 
What was the agency's motivation for focusing solely on 
electricity for the second QER?
    Mr. Moniz. Well, the motivation was that, as we are looking 
to put together the pieces for ultimately bringing them all 
together, in the first QER, which looked at all the energy 
infrastructures, it kind of said, well, you know, the 
electricity infrastructure is kind of first among equals, 
because so many other infrastructures in energy, information 
technology and the like, depend upon electricity.
    So we think this is actually a core system. As I said 
earlier also in a response, it is also a system that is perhaps 
ripe for--well, it is going through some change and there may 
be a lot more coming as technology and new services drive the 
electricity system.
    Mr. Hudson. Thank you.
    Mr. Chairman, I see I am out of time. And I will submit 
written questions to follow up on, just sort of what the 
timeframe for participation and when we expect that QER draft 
to come forward.
    Mr. Moniz. And I might add, the NC State hub on wide 
bandgap semiconductors is part of the technology for this new 
grid.
    Mr. Hudson. Great.
    Thank you, Mr. Chairman.
    Mr. Whitfield. All right.
    At this time, the Chair recognizes the gentleman from New 
York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And, Secretary Moniz, welcome. You have had quite a busy 
year since our last budget meeting. And to your credit, I want 
to thank and congratulate you on all you have done, ranging 
from the Iran nuclear outcome to Paris and the climate 
agreement and certainly embracing innovation. Your expertise 
and your leadership have been critical for our Nation, if not 
our planet's, future security and sustainability. So an awesome 
thanks.
    Mr. Moniz. Thank you.
    Mr. Tonko. Mr. Secretary, Mission Innovation is a critical 
aspect toward meeting the goals of COP21 agreement. There was 
consensus coming out of Paris that new technologies and energy 
innovation will be needed to enable the transition to a low-, 
if not zero-, carbon-emission future.
    And, by the way, I have to tell you I did a visit to the 
ARPA-E Innovation Summit. Tremendous leadership there. Thank 
you for the foresight, for the vision, and for the structuring 
of such a summit.
    Can you explain the United States and its financial 
commitment to the Mission Innovation initiative? And how much 
more investment would you believe is necessary to meet that 5-
year goal?
    Mr. Moniz. Well, the commitment specifically, to choose the 
words carefully, was to seek to double the energy R&D over 5 
years, because, obviously, we have to work with the Congress to 
reach that. But the request this year, as you know, is 21 
percent in the discretionary funds, and that would be, 
obviously, a linear trajectory to doubling.
    And, again, I would just say, it may be semi-anecdotal, but 
every piece of evidence I have says we could get a lot more 
innovation with that increased investment.
    Mr. Tonko. I share, certainly, that belief. It is 
important.
    DOE's proposed fiscal year 2017 investment makes up more 
than three-quarters of the Government's Mission Innovation 
commitment, but it will really be a partnership amongst 
numerous agencies, the private sector, and other nations.
    Can you explain just how that investment will be broken 
down across multiple DOE offices and Federal agencies?
    Mr. Moniz. Well, I don't have the exact table for the 
Federal agencies right now, but the second-biggest amount is in 
the Department of Defense, where they actually have quite a bit 
of energy work going on, substantially less than DOE, 
obviously, but quite substantial. They have interest in and we 
partner with them already in things like advanced drop-in 
biofuels. So they would like to reduce their oil dependence, 
but they can't replace the engine, so they have to go to drop-
in biofuel. So that is still a big challenge.
    They have lots of interest in things like microgrids for 
their stationary assets, for their facilities. And, of course, 
something that is not a major energy user on the scale of, you 
know, quads of energy but very important for our warfighters is 
the question of portable energy that the people on the front 
lines can use.
    Mr. Tonko. Thank you.
    And there are some 19 other countries that have also made 
R&D commitments. What are the benefits of working with 
international investors? And what is the cooperative, 
collaborative research concept that you are hoping for here?
    Mr. Moniz. First of all, it is important to note that, 
among the countries, the 20 countries, there is no obligation, 
you know, to work together on projects. Every country makes its 
sovereign choice about managing its expanded portfolio. So the 
main thing here is that it gets a lot more innovation going.
    Now, I expect that there will be enhanced collaboration 
between countries that share a specific interest in a project. 
For example, with India, we have, you know, discussed in 
general terms that distributed generation may provide a great 
opportunity for much more collaboration with them on technology 
development. We both have distributed-generation needs; they 
are somewhat different. But that could be a logical one.
    Another one where we are already ramping up but, say, in 
our discussion with the Saudis, quite different, the issue of 
what are we going to do about HFC replacements, especially for 
warm climates, not only different operating fluids, 
potentially, but new thermodynamic cycles that are more 
adventurous, if you like, in the technology.
    So I think those will appear, but we have no obligation for 
enhanced international collaboration. We manage our portfolio. 
The investors are international. They will be looking for the 
best opportunities that come out of these innovation pipelines 
in any of the 20 countries. So the extent to which we push, we 
are also going to capture that investment.
    Mr. Tonko. Thank you.
    Mr. Secretary, I have used up my time. Let me again thank 
you for your leadership. It is awesome. And the benefits of 
your leadership are showing themselves through all of this.
    So, with that, I thank you and yield back, Mr. Chair.
    Mr. Whitfield. The gentleman yields back.
    And now I will recognize myself for 5 minutes of questions 
since I waited until everyone else asked their questions first.
    Well, Mr. Secretary, thank you again for being here today. 
We really appreciate it.
    Reference was made to the nuclear waste problem. And I am 
not sure exactly how many nuclear power plants we have 
operating in the U.S. today. I think it is roughly 100 or----
    Mr. Moniz. Roughly 100.
    Mr. Whitfield [continuing]. Ninety-nine.
    Mr. Moniz. Ninety-nine, yes, right. Uh-huh.
    Mr. Whitfield. And this does not reflect on you, but, as a 
Nation, I think we have made some major blunders in the area of 
dealing with nuclear waste. I know the Nuclear Waste Fund, 
nuclear power plants have been contributing to that for some 
time. We have spent roughly--you can correct me if I am wrong, 
but we have spent roughly $12 billion or so on Yucca Mountain.
    When the day came for the Government to take possession of 
this waste and start moving it to Yucca Mountain, Yucca 
Mountain was not ready to take it, not certified. And so the 
nuclear power plants filed the lawsuit against the Federal 
Government and obtained a judgment against the Federal 
Government. I don't remember the exact amount of that judgment. 
I was told it was roughly $10 billion. But do you know the 
exact amount?
    Mr. Moniz. I don't know the exact up to now, but the 
projections have said it could reach $20 billion eventually.
    Mr. Whitfield. Yes, because it is ongoing, because they 
can't take--so roughly $20 billion.
    And now we are looking at maybe an interim site. And it is 
my understanding--and I think you confirmed this--that that 
interim site would never work unless Congress approves it. Is 
that your understanding?
    Mr. Moniz. Yes. According to the Nuclear Waste Policy Act, 
we cannot establish an interim site without----
    Mr. Whitfield. Right. And so here we are kind of at a 
stalemate on that issue.
    Mr. Moniz. Yep.
    Mr. Whitfield. And then that brings up three other funds. 
On the Nuclear Waste Fund, the nuclear power plants are not 
paying into that fund as a result----
    Mr. Moniz. Correct.
    Mr. Whitfield [continuing]. Of the judgment.
    Mr. Moniz. That was suspended.
    Mr. Whitfield. Yes.
    And the Government is paying them every year, I guess, a 
certain amount of money to satisfy this judgment. I don't know 
how much, but whatever it is. OK.
    So, on the other side, the D&D fund, the USEC fund, the 
uranium supply and enrichment fund activities. On the D&D fund, 
normally the money from the cleanup--Paducah, for example, 
comes from the D&D fund. And it is my understanding that the 
D&D fund is funded from the utility plants as a result of some 
legislation maybe that passed around 1992 or so and that that 
was suspended in 2007 roughly. So, since then, they have not 
paid into this fund.
    And how much is the Department of Energy spending each year 
to assist these communities in cleanup, total? Do you know 
exactly?
    Mr. Moniz. No, but I would guess it is--for the three 
sites, it is probably on the order of $500 million. But, 
obviously, we can add up the numbers.
    Mr. Whitfield. Yes. I mean, I think Paducah is roughly $270 
million, $280 million.
    Mr. Moniz. Yes. I may be a bit low.
    Mr. Whitfield. OK.
    Mr. Moniz. And Portsmouth, of course, there is also the 
barter contribution----
    Mr. Whitfield. Right.
    Mr. Moniz [continuing]. Of about $150 million. If you don't 
count that, then we are probably around $500 million, I would 
guess.
    Mr. Whitfield. But, now, you all are proposing some 
mandatory funding and taking money out of the USEC fund which I 
guess has just been sitting there----
    Mr. Moniz. Accumulating interest.
    Mr. Whitfield. Oh, is that interest staying in the fund?
    Mr. Moniz. I believe so. That is my understanding.
    Mr. Whitfield. OK. And in order to go to the mandatory 
funding, the way you all are suggesting, that would require 
legislation, as well. Is that correct?
    Mr. Moniz. Yes, we would need some authorization.
    Mr. Whitfield. OK.
    Mr. Moniz. I believe. I believe that is the case.
    Mr. Whitfield. All right.
    Mr. Moniz. I should check with the experts. But, also, 
there is also the question of offsets----
    Mr. Whitfield. OK.
    Mr. Moniz [continuing]. Because of the budget cap.
    Mr. Whitfield. Right. Right.
    Now, OK, so--I wish we could talk a little bit more about 
that, but I only have, like, 20-some seconds left.
    Mr. Moniz. And I would just add, we did suggest a possible 
offset with the quarter-mil per kilowatt hour from the relevant 
utilities.
    Mr. Whitfield. OK. OK.
    Now, this is really a parochial issue. This gets down to 
Paducah. On September 2, you all issued a request for 
information for the Paducah cleanup project. And it is my 
understanding that the contract will expire--the current 
contract expires in July 2017. And do you have any idea if you 
all expect to renew a contract by that time? Or can you give me 
a brief explanation of where you think you are?
    Mr. Moniz. I would certainly expect that. But why don't I 
nail that down and get back to you promptly.
    Mr. Whitfield. OK.
    Mr. Moniz. But, yes, our expectation is we are moving 
towards having a contract in place.
    Mr. Whitfield. OK.
    Mr. Moniz. But we certainly need continuity, obviously.
    Mr. Whitfield. Yes. Yes.
    And then, in closing, I am going to editorialize for just a 
minute, just a pet peeve that I have, which does not relate to 
you. I hear so many people talk about we need to expand solar 
and wind to make us less dependent on foreign oil, which I have 
never exactly understood because wind and solar is about 
electricity and oil is about transportation.
    Mr. Moniz. I never said that.
    Mr. Whitfield. You didn't say that, but so many people say 
that, and so that is my editorial.
    So, having said that, I want to thank you very much for 
being with us. And we have been here almost 3 hours, so thank 
you for your patience. We look forward to working with you on 
the important agenda of the Department of Energy.
    And we will keep the record open for 10 days. I think 
various members said they--some of them had additional 
questions and so forth.
    And do we have anything for the record? OK.
    Mr. Rush, do you have anything?
    Mr. Rush. No, nothing.
    Mr. Whitfield. All right.
    Then, Mr. Secretary, thank you so much.
    And that concludes today's hearing.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

    Mr. Moniz' response has been retained in committee files 
and also is available at  http://docs.house.gov/meetings/IF/
IF03/20160302/104593/HHRG-114-IF03-Wstate-MonizE-20160302-
SD086.pdf.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
